APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals
for the Third Circuit (April 21, 2020) ................ 1a
Order of the United States Court of Appeals
for the Third Circuit (February 12, 2019)........ 18a
Opinion of the United States District Court
for the District of New Jersey
(December 19, 2017) ......................................... 21a
Order of the United States Court of Appeals
for the Third Circuit Denying Petition
for Rehearing En Banc (August 6, 2020) ......... 42a
Circuit Judges Join Dissenting Opinion
on Sur Denial of Rehearing En Banc
(August 6, 2020) ............................................... 44a
DEPOSITION TRANSCRIPTS
Deposition of Joanne Leyman– Relevant Excerpts
(February 23, 2016) .......................................... 85a
Deposition of Philip Conza– Relevant Excerpts
(October 20, 2015) ............................................ 90a
Deposition of Noah Bartelt– Relevant Excerpts
(September 22, 2015)........................................ 94a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Statement of Noah Bartelt to Detective Timothy
Coyle-Division of Criminal Justice
(May 27, 2011) ................................................ 110a
Statement of Dispatch and New Jersey State Police
Radio Transmission (May 25, 2011) .............. 121a
New Jersey State Police Investigation
Report Narrative of May 24, 2011 Incident .. 127a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(APRIL 21, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
ARLANE JAMES, IN RE: WILLIE GIBBONS;
J.R.G., A MINOR, BY HIS MOTHER AND LEGAL GUARDIAN,
IKEYA CRAWFORD; D.K.L., A MINOR, BY HIS MOTHER
AND LEGAL GUARDIAN, ANGEL STEPHENS; L.M.G.,
A MINOR, BY HER MOTHER AND LEGAL
GUARDIAN, ANGEL STEPHENS
v.
NEW JERSEY STATE POLICE; STATE OF NEW
JERSEY; JOHN DOES 1-10; NOAH BARTELT,
STATE TROOPER; PHILLIP CONZA, STATE TROOPER;
DANIEL HIDDER, STATE TROOPER; MICHAEL
KORIEJKO, STATE TROOPER; JAMES MCGOWAN,
SERGEANT, IN THEIR INDIVIDUAL AND
OFFICIAL CAPACITIES

and
NOAH BARTELT,

Appellant.
________________________
No. 18-1432
On Appeal from the United States District Court
for the District of New Jersey

App.2a
(D.C. Civil No. 1-13-cv-03530)
District Judge: Honorable Joseph H. Rodriguez
Before: HARDIMAN, PORTER, and PHIPPS,
Circuit Judges.
PORTER, Circuit Judge.
Qualified immunity protects government officials
from being held liable for damages when their conduct
does not violate a citizen’s clearly established rights.
As the Supreme Court has noted, qualified immunity
advances a policy of “shield[ing] officials from harassment, distraction, and liability when they perform their
duties reasonably.” Pearson v. Callahan, 555 U.S. 223,
231 (2009).
The issue here is whether New Jersey State Trooper
Noah Bartelt is entitled to qualified immunity after
using deadly force against Willie Gibbons, a suspect
who refused to drop his gun when Trooper Bartelt
ordered him to do so. Gibbons’s mother (Arlane
James) and minor children (J. R. G., D. K. L., and L. M.
G.) (collectively, “James”) filed an action under 42
U.S.C. § 1983 against Trooper Bartelt and other state
actors alleging constitutional violations arising from
Trooper Bartelt’s use of force against Gibbons. All
individual defendants moved for summary judgment
based on qualified immunity. The District Court
granted qualified immunity to all individual defendants except Trooper Bartelt. The District Court then
denied James’s and Trooper Bartelt’s cross-motions
for reconsideration.
Trooper Bartelt is entitled to qualified immunity
because he did not violate Gibbons’s clearly established
rights. Thus, we will reverse the District Court’s denial

App.3a
of qualified immunity to Trooper Bartelt and remand
with instructions to grant judgment in his favor.
I
Trooper Bartelt appeals the District Court’s order
denying summary judgment based on qualified
immunity under the “collateral-order doctrine.” See
E.D. v. Sharkey, 928 F.3d 299, 305 (3d Cir. 2019).1
Under this doctrine, our review is plenary and “strictly
limited to the legal questions involved.” In re
Montgomery Cty., 215 F.3d 367, 372 (3d Cir. 2000).
We lack jurisdiction to review the District Court’s determination that a factual dispute is genuine, but we
have jurisdiction to consider whether the disputed fact
is material to the issue on which a party sought
summary judgment. See Davenport v. Borough of
Homestead, 870 F.3d 273, 278 (3d Cir. 2017); see also
Fed. R. Civ. P. 56(a). Thus, we accept the District
Court’s facts as true for purposes of this appeal, see
id., and we will review “the record to determine what
[other] facts the [D]istrict [C]ourt . . . likely assumed,”
Johnson v. Jones, 515 U.S. 304, 319 (1995).
II
Willie Gibbons lived with Angel Stephens in
Bridgeton, New Jersey. After the two had a domestic
argument on May 24, 2011, Stephens called 911 and
reported that “[Gibbons] hit her” and that Gibbons
had a “gun in his truck.” A12–13. The police drove to
Stephens’s house, and Stephens and Gibbons each
1 The District Court had subject-matter jurisdiction under 28
U.S.C. §§ 1331 and 1343. We have jurisdiction over this appeal
under 28 U.S.C. § 1291 and the collateral-order doctrine. See E.D.,
928 F.3d at 305.

App.4a
completed written statements describing the incident.
Stephens then obtained a temporary restraining order
from Fairfield/Downe Joint Municipal Court against
Gibbons. The order prohibited Gibbons from possessing
firearms and from returning to Stephens’s house.
The next day, on May 25, 2011, Gibbons requested
a police escort to retrieve possessions from Stephens’s
house, but the police informed him that he needed judicial approval for the visit. Gibbons went to Stephens’s
house alone anyway, in violation of the court’s temporary restraining order. Another argument followed
between Gibbons and Stephens. Stephens was speaking with a friend on the phone at the time, so the friend
called the police to report that Gibbons had violated the
restraining order. Gibbons then left Stephens’s house.
Trooper Philip Conza soon arrived at the house
and Stephens told him that Gibbons had waved a gun
throughout their argument. Trooper Conza told Stephens to make a complaint against Gibbons at the
police barracks and reported over the police radio that
Gibbons had brandished a firearm. Trooper Conza,
joined by Troopers Bartelt and Michael Korejko, then
searched for Gibbons at the nearby home of Gibbons’s
mother, Arlane James. James told the Troopers that
she did not know where Gibbons was and that he may
be off his medication.2
While Stephens was driving to the barracks, she
saw Gibbons walking alongside the road. She called
911 and reported Gibbons’s location. Troopers Bartelt,

2 Gibbons was diagnosed with schizophrenia and had been
prescribed medication to treat this condition.

App.5a
Conza, and Korejko, along with Trooper Daniel Hidder
responded to the location.
When Trooper Bartelt pursued Gibbons, he knew
that Gibbons: (1) had violated a restraining order; (2)
was in possession of a firearm that he had brandished
within the last hour; and (3) was reportedly mentally
ill and may not have been taking his medication.3
Trooper Bartelt was the first officer to engage
Gibbons. As Trooper Bartelt approached Gibbons by
car (with his window down), he heard Gibbons say,
“stay away from me.” A16. Trooper Bartelt then parked
his car and, while exiting, observed that Gibbons was
holding a gun in his left hand and pointing it at his own
head. Trooper Bartelt drew his weapon, stood behind
his car door, twice told Gibbons to drop his weapon,
and ordered him to “come over here.” Id. Gibbons did
not comply with the commands and may have
repeated, “stay away from me.” Id. Separated by seven
to fifteen yards, Trooper Bartelt then shot Gibbons
twice. Trooper Bartelt shot Gibbons within seconds of
stopping his car. Trooper Conza arrived on the scene
before Trooper Bartelt fired the shots. Troopers Korejko
and Hidder arrived shortly after. Gibbons was flown to
the hospital but died that night.
III
Trooper Bartelt challenges the District Court’s
ruling denying him qualified immunity. Qualified
immunity has two prongs. “First, a court must decide
3 The District Court did not specifically find these three facts.
But because these facts are undisputed by the parties, we find
that they are among the facts that the District Court “likely
assumed.” See Johnson, 515 U.S. at 319.

App.6a
‘whether the facts that a plaintiff has . . . shown make
out a violation of a constitutional right.’” Spady v.
Bethlehem Area Sch. Dist., 800 F.3d 633, 637 (3d Cir.
2015) (alteration in original) (quoting Pearson, 555
U.S. at 232). “And second, the court must determine
‘whether the right at issue was “clearly established”
at the time of defendant’s alleged misconduct.’” Id. We
may begin with either prong. Id.
The District Court held that Trooper Bartelt failed
to satisfy both prongs, so he was not entitled to
qualified immunity. On appeal, Trooper Bartelt argues
that the District Court erred by finding that he may
have violated one of Gibbons’s constitutional rights
and by concluding that the constitutional right was
clearly established.
We will not review the District Court’s holding that
Trooper Bartelt may have violated a constitutional
right—the first prong of qualified immunity. The District Court based this holding on its conclusion that
“genuine issues of disputed fact” existed, but it did not
identify these disputed facts. See A30. To the extent
that the District Court is correct that these unstated
facts are material to the inquiry, we lack jurisdiction
under the collateral-order doctrine to review its
holding on this prong. See Davenport, 870 F.3d at 278;
see also Johnson, 515 U.S. at 319. Thus, we will
assume without deciding that Trooper Bartelt violated
one of Gibbons’s constitutional rights and proceed to
qualified immunity’s second prong.4
4 To aid our review in qualified immunity cases, we announced a
supervisory rule in Forbes v. Township of Lower Merion for all
cases “in which a summary judgment motion based on qualified
immunity is denied on the ground that material facts are subject

App.7a
IV
Qualified immunity’s second prong “shields officials
from civil liability so long as their conduct ‘does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.’” Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
(quoting Pearson, 555 U.S. at 231).
“Clearly established means that, at the time of
the officer’s conduct, the law was sufficiently clear that
every reasonable official would understand that what
he is doing is unlawful.” District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018) (internal quotation marks
and citation omitted). The inquiry is an “objective
(albeit fact-specific) question,” under which “[an
officer]’s subjective beliefs . . . are irrelevant.” Anderson
v. Creighton, 483 U.S. 635, 641 (1987). Because the
inquiry is from the perspective of a reasonable officer,
we “consider[] only the facts that were knowable to the
defendant officer[].” White v. Pauly, 137 S. Ct. 548, 550
(2017) (citation omitted).
In rare cases, a plaintiff may show that a right is
clearly established if the “violation [is] ‘obvious.’” See
Brosseau v. Haugen, 543 U.S. 194, 199 (2004) (quoting
Hope v. Pelzer, 536 U.S. 730, 738 (2002)). In the
to genuine dispute.” 313 F.3d 144, 146 (3d Cir. 2002). Under
Forbes’s supervisory rule, district courts must “specify those
material facts that are and are not subject to genuine dispute
and explain their materiality.” Id.
Here, the District Court found that genuine disputes of material
fact precluded it from concluding whether Trooper Bartelt
violated one of Gibbons’s constitutional rights. But it did not
specify which material facts were in dispute or explain their
materiality. We reiterate that Forbes’s supervisory rule remains
in effect. See E.D., 928 F.3d at 310–11 (Smith, C.J., concurring).

App.8a
excessive-force context, “obvious cases” are those that
obviously violate Graham v. Connor, 490 U.S. 386
(1989), and Tennessee v. Garner, 471 U.S. 1 (1985).
See Brosseau, 543 U.S. at 199. “[Graham] clearly
establishes the general proposition that use of force is
contrary to the Fourth Amendment if it is excessive
under objective standards of reasonableness.” Id. at
198 (citation omitted). And Garner held that “[deadly]
force may not be used unless it is necessary to
prevent . . . escape and the officer has probable cause
to believe that the suspect poses a significant threat
of death or serious physical injury to the officer or
others.” 471 U.S. at 3.
But in most cases, a plaintiff must show that a
right is clearly established because “the violative
nature of particular conduct [was] clearly established.’”
Ziglar v. Abbasi, 137 S. Ct. 1843, 1866 (2017) (quoting
Mullenix, 136 S. Ct. at 308). In other words, “settled
law,” Wesby, 138 S. Ct. at 590, must “‘squarely govern[]’
the specific facts at issue,” see Kisela v. Hughes, 138
S. Ct. 1148, 1152 (2018) (quoting Mullenix, 136 S. Ct. at
309). The Supreme Court has explained that a plaintiff
may satisfy this standard by “identify[ing] a case where
an officer acting under similar circumstances as [the
defendant officer] was held to have violated the [constitutional provision at issue].” White, 137 S. Ct. at 552.
For qualified-immunity purposes, “clearly established rights are derived either from binding Supreme
Court and Third Circuit precedent or from a ‘robust
consensus of cases of persuasive authority in the
Courts of Appeals.’” Bland v. City of Newark, 900 F.3d
77, 84 (3d Cir. 2018) (citation omitted); see Wesby, 138
S. Ct. at 589–90 (“To be clearly established, a legal
principle must . . . [be] dictated by controlling authority

App.9a
or a robust consensus of cases of persuasive authority[.]” (citations and internal quotation marks omitted)).
So we first look to factually analogous precedents of
the Supreme Court and the Third Circuit. See L.R. v.
Sch. Dist. of Phila., 836 F.3d 235, 247–48 (3d Cir.
2016). Then, we examine persuasive authorities, such
as our nonprecedential opinions and decisions from
other Courts of Appeals. See id. We may consider all
relevant cases under this inquiry, not just those cited
by the parties. See Elder v. Holloway, 510 U.S. 510,
516 (1994).
V
On appeal, Trooper Bartelt argues that he did not
violate a clearly established right. We agree because,
at the time, no Supreme Court precedent, Third
Circuit precedent, or robust consensus of persuasive
authority had held that “an officer acting under similar
circumstances as [Trooper Bartelt] . . . violated the
Fourth Amendment.” See White, 137 S. Ct. at 552.
Because the events here occurred on May 25, 2011, we
will consider only precedents that clearly established
rights as of that date. See Bryan v. United States, 913
F.3d 356, 363 (3d Cir. 2019).
A
First, we consider whether Trooper Bartelt violated
a right that was clearly established by Supreme Court
precedent.5 He did not.
5 The District Court identified the clearly established right that
Trooper Bartelt may have violated as follows: “an officer may not
use deadly force against a suspect unless the officer reasonably
believes that the suspect poses a threat of serious bodily injury
to the officer or others.” A28 (quoting Lamont v. New Jersey, 637

App.10a
The closest factually analogous Supreme Court
precedent, Kisela v. Hughes, 138 S. Ct. 1148, is instructive. Kisela involved a May 2010 police standoff bearing
some similarity to the standoff between Trooper Bartelt
and Gibbons. Id. at 1150–51. In Kisela, the Supreme
Court held that an officer did not violate a clearly
established right by shooting a suspect who was
armed with a knife. Id. at 1154– 55. The suspect had
not responded to at least two police commands to drop
the knife and “had been acting erratically” before the
police arrived. Id. at 1151. And the officer “had mere
seconds to assess the potential danger to [a bystander
who was less than six feet away].” Id. at 1153.
The Supreme Court distinguished “the specific
facts at issue” in Kisela from the facts in precedents
that a lower court had relied on to find that the defendant had violated a clearly established right. Id. The
Supreme Court assumed that the defendant had violated a right but held that neither Supreme Court nor
F.3d 177, 185 (3d Cir. 2011) (citing Garner, 472 U.S. at 3, 11)).
We disagree because the District Court viewed the “right” at too
“high [a] level of generality.” See City of Escondido v. Emmons,
139 S. Ct. 500, 503 (2019). As the Supreme Court has explained,
“Garner . . . do[es] not by [itself] create clearly established law
outside ‘an obvious case.’” White, 137 S. Ct. at 552 (citation
omitted).
This is not an obvious case. The facts here show that a reasonable
officer could have perceived that Gibbons posed “a serious threat
of immediate harm to others.” Davenport, 870 F.3d at 281
(collecting cases and observing that “courts have found ‘obvious’
cases [based on Garner] only in the absence of a serious threat of
immediate harm to others”); cf. Kane v. Barger, 902 F.3d 185, 195
(3d Cir. 2018) (finding that a violation was “obvious” because “it
seem[ed] absurd to analyze whether the right . . . was clearly
established by case law at the time of [the defendant’s] conduct”).
We thus reject the District Court’s clearly established analysis.

App.11a
circuit precedent was factually analogous enough to
clearly establish the right. Id. at 1152–53. It identified
several facts that distinguished the scenario it
considered from the factual scenarios of earlier precedents: (1) “[the suspect] was armed with a large knife”;
(2) the suspect “ignored officers’ orders to drop the
weapon”; (3) the suspect “was within striking distance
of [a bystander]”; and (4) “the situation unfolded in
less than a minute.” Id. at 1154. It concluded that
these factual differences “leap[ed] from the page” and
that the unlawfulness of the “new set of facts” in
Kisela was not clearly established by Supreme Court
or circuit caselaw. Id. (citation omitted).
Many of the same distinguishing facts are present
here: (1) Gibbons was armed with a gun; (2) Gibbons
ignored Trooper Bartelt’s orders to drop his gun; (3)
Gibbons was easily within range to shoot Troopers
Bartelt or Conza; and (4) the situation unfolded in
“seconds.” See A16–18.
In sum, Trooper Bartelt did not violate a right
that had been clearly established by Supreme Court
precedent.
B
Next, we consider whether Trooper Bartelt violated
a right that had been clearly established by Third
Circuit precedent. None of our relevant precedents
present a sufficiently similar factual scenario at the
“high ‘degree of specificity’” that Supreme Court precedent requires. See Wesby, 138 S. Ct. at 590
(citations omitted). So we conclude that he did not.
We begin by examining our closest factually analogous precedential opinion, Bennett v. Murphy, 274

App.12a
F.3d 133 (3d Cir. 2002). In Bennett, we held that a
police officer violated the Fourth Amendment by
shooting an armed, suicidal suspect during a prolonged
police standoff. See id. at 136. We recounted the facts
in Bennett by quoting the district court’s factual summary:
The state police were called to the courtyard of
a group of apartment buildings on the evening
of January 4, 1994 to confront [the suspect],
who they soon learned was distraught at
being unable to see his girlfriend. He was
armed with a single shot shotgun that he held
vertically in front of him, with the barrel
pointed up at his head, and the stock facing
down. He was “very deliberate in holding the
gun toward himself or in the air,” and did not
point the gun at anyone, including state
troopers. He stated that he wanted to kill
himself. As the troopers took up positions
surrounding him in the open area between
the apartment buildings, he became agitated
and began moving toward a group of them[]
but stopped for perhaps four seconds before
he was shot. [The police officer defendant] was
positioned 80 yards behind [the suspect] when
he fired. Almost an hour passed between the
time the state troopers first arrived on the
scene, and the time [the suspect] was shot.
[The suspect] admittedly was angry and defiant in the face of a group of determined,
armed state troopers.

Id. at 135 n.2 (alterations in original omitted) (quoting
Bennett v. Murphy, 127 F. Supp. 2d 689, 690–91 (W.D.
Pa. 2000)). The Bennett district court also noted that

App.13a
the suspect was around twenty-seven yards from the
nearest group of police officers when the defendant
shot him. See 127 F. Supp. 2d at 691 (describing the
suspect as “one third” of eighty yards from the nearest
group of officers). And in a later nonprecedential
opinion, we observed that the suspect had refused
commands to drop his firearm but obeyed other commands. See Bennett v. Murphy, 120 F. App’x 914, 917–
18 & 918 n.1 (3d Cir. 2005).
Viewing the evidence in the light most favorable
to the plaintiff, we opined that the suspect “did not
pose a threat to anyone but himself.” Bennett, 274
F.3d at 136. Thus, we held that the defendant police
officer’s deadly force was “objectively excessive” in violation of the Fourth Amendment. Id.
Three factual differences lead us to conclude that
Trooper Bartelt did not violate a clearly established
right. First, Trooper Bartelt’s pre-standoff knowledge
of Gibbons differs from the Bennett officer’s prestandoff knowledge of the suspect. Trooper Bartelt was
aware of several facts from which he could reasonably
conclude that Gibbons posed a threat to others: Gibbons
had violated a restraining order; Gibbons was carrying
and earlier that evening had brandished a firearm;
and Gibbons was reportedly mentally ill and may not
have been taking his medication. Each of these facts
would lead a reasonable officer entering an encounter
with Gibbons to perceive that Gibbons presented an
increased risk of harm compared with the suspect in
Bennett.
Second, Gibbons was much closer to and less
compliant with Trooper Bartelt than the suspect in
Bennett. Gibbons was just seven to fifteen yards from
Trooper Bartelt, unlike the suspect in Bennett who

App.14a
was eighty yards away from the defendant officer.
Trooper Bartelt could not rely on closer officers to give
commands to Gibbons and evaluate his compliance.
See Bennett, 120 F. App’x at 918 n.1 (noting that the
suspect was complying with commands from closer
officers when the defendant officer shot him). Instead,
Trooper Bartelt was the closest officer to Gibbons. So
when Gibbons ignored Trooper Bartelt’s orders to
drop his gun, Trooper Bartelt was the officer with the
best opportunity to evaluate whether Gibbons posed a
threat to others. A reasonable officer would have
difficulty concluding that using force against the distant, comparatively compliant, and unknown suspect
in Bennett was clearly factually analogous to using
force against the much-closer, noncompliant Gibbons,
whose recent behavior was known to Trooper Bartelt.
Third, Trooper Bartelt’s standoff with Gibbons
lasted only moments, unlike the nearly hour-long standoff in Bennett. Trooper Bartelt’s interaction with
Gibbons was over within seconds of his arrival on the
scene. He necessarily “had mere seconds to assess the
potential danger” posed by the armed and noncompliant Gibbons. See Kisela, 138 S. Ct. at 1153. The
Supreme Court stressed the importance of this kind of
temporal difference when conducting the clearly
established inquiry. See id . at 1154 (distinguishing
a case involving a standoff that lasted “roughly 40
minutes” and a case involving a standoff that “unfolded
in less than a minute,” finding that a constitutional
violation in the former did not clearly establish a right
that was applicable to the latter). So the substantially
shorter duration of Trooper Bartelt’s standoff with
Gibbons further distinguishes the facts here from those
in Bennett.

App.15a
For these reasons, although Bennett may be the
most analogous precedent from our Court, its holding
does not “‘squarely govern[]’ the specific facts at issue”
here. See id. at 1151 (citation omitted). And because
no other Third Circuit precedent is factually analogous
to this case, we conclude that Trooper Bartelt did not
violate a clearly established right under our precedent.6
C
Finally, we consider whether Trooper Bartelt violated a right that had been clearly established by a
robust consensus of persuasive authority in the Courts
of Appeals. The caselaw of our sister circuits prohibits
the use of deadly force against non-threatening suspects, even when they are armed and suicidal.7 But
6 Our decision in Lamont supports our conclusion that Trooper
Bartelt did not violate a clearly established right under our precedent. 637 F.3d 177. There, police officers did not violate the
Fourth Amendment by using deadly force against a suspect who
made abrupt movements that a reasonable officer could perceive
as drawing a firearm. Id. at 183–84. Lamont shows that if
Gibbons had been unarmed but made abrupt movements that an
officer could perceive as drawing a firearm, Trooper Bartelt
would not have violated clearly established law by using deadly
force against him.
Gibbons had already drawn a firearm when Trooper Bartelt shot
him. As we explained in Lamont, “[p]olice officers do not enter
into a suicide pact when they take an oath to uphold the Constitution.” Id. at 183. Given Lamont, we cannot say that Bennett
“move[s this] case beyond the otherwise ‘hazy border between
excessive and acceptable force.’” See Kisela, 138 S. Ct. at 1153
(citation omitted).
7 See, e.g., Walker v. City of Orem, 451 F.3d 1139, 1159–61 (10th
Cir. 2006) (holding that using deadly force against a suicidal,
knife-wielding, and non-threatening suspect violated one of the

App.16a
none of the cases that stand for this general principle
involve the “high ‘degree of specificity’” required to
clearly establish a right under the circumstances
Trooper Bartelt faced. See Wesby, 138 S. Ct. at 590
(citation omitted).
James argues that several cases from our sister
circuits are factually analogous enough to show that
Trooper Bartelt violated a clearly established right.
See Weinmann v. McClone, 787 F.3d 444 (7th Cir.
2015) (denying qualified immunity when an officer
used deadly force against an armed suspect); Cooper
v. Sheehan, 735 F.3d 153 (4th Cir. 2013) (same); see
also Connors v. Thompson, 647 F. App’x 231 (4th Cir.
2016) (same); Glenn v. Washington Cty., 673 F.3d 864
(9th Cir. 2011) (same). Even if these cases bear some
factual similarity to the scenario Trooper Bartelt faced,
we do not agree that they create a clearly established
right. And in any event, they were all decided after the
events here (i.e., after May 25, 2011). Thus, they
“‘could not have given fair notice to [Trooper Bartelt]’
because a reasonable officer is not required to foresee
judicial decisions that do not yet exist.” See Kisela,
138 S. Ct. at 1154 (quoting Brosseau, 543 U.S. at 200
n.4).
Thus, we conclude that Trooper Bartelt did not
violate a right that had been clearly established by a
robust consensus of persuasive authority in the Courts
of Appeals.

suspect’s constitutional rights); Mercado v. City of Orlando, 407
F.3d 1152, 1157–58 (11th Cir. 2005) (same); Sova v. City of Mt.
Pleasant, 142 F.3d 898, 903 (6th Cir. 1998) (same).

App.17a
VI
For these reasons, Trooper Bartelt did not violate
a clearly established right by using deadly force
against Gibbons. “When properly applied, [qualified
immunity] protects ‘all but the plainly incompetent or
those who knowingly violate the law.’ [Trooper
Bartelt] deserves neither label[.]” See Ashcroft v. alKidd, 563 U.S. 731, 743 (2011) (citations omitted). The
District Court erred by concluding otherwise and
denying him qualified immunity.
We will reverse the District Court’s orders as to
Trooper Bartelt and remand this case with instructions
to grant judgment to him based on qualified immunity.

App.18a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(FEBRUARY 12, 2019)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
ARLANE JAMES, IN RE: WILLIE GIBBONS;
J.R.G., A MINOR, BY HIS MOTHER AND LEGAL GUARDIAN,
IKEYA CRAWFORD; D.K.L., A MINOR, BY HIS MOTHER
AND LEGAL GUARDIAN, ANGEL STEPHENS; L.M.G.,
A MINOR, BY HER MOTHER AND LEGAL
GUARDIAN, ANGEL STEPHENS

Appellants in 18-1603,
v.
NEW JERSEY STATE POLICE; STATE OF NEW
JERSEY; JOHN DOES 1-10; NOAH BARTELT,
STATE TROOPER; PHILLIP CONZA, STATE TROOPER;
DANIEL HIDDER, STATE TROOPER; MICHAEL
KORIEJKO, STATE TROOPER; JAMES MCGOWAN,
SERGEANT, IN THEIR INDIVIDUAL AND
OFFICIAL CAPACITIES

NOAH BARTELT,

Appellants in 18-1432.
________________________
Nos. 18-1432 & 18-1603
(D.N.J. No. 1-13-cv-03530)

App.19a
Present: JORDAN, GREENAWAY, JR., AND
NYGAARD, Circuit Judges.
1. Clerk’s Submission for Possible Dismissal Due to
Jurisdictional Defect
2. Response filed by Appellant Noah Bartelt in 181432 to clerk order advising of possible dismissal
3. Response on behalf of Appellees Noah Bartelt,
Phillip Conza, Daniel Hidder, Michael Koriejko, James
McGowan, New Jersey State Police and Sate of New
Jersey in 18-1603 to possible dismissal due to jurisdictional defect
4. Response filed by Appellants J.R.G., L.M.G.,
Arlane James and D.K.L. in 18-1603 to clerk order
advising of possible dismissal.
Respectfully
Clerk/JK

App.20a
ORDER
The issue of this Court’s jurisdiction over Appeal
No. 18-1432 is hereby referred to the merits panel. See
Mitchell v. Forsyth, 472 U.S. 511, 530 (1985). Appeal
Nos. 18-1603, however, is hereby dismissed for lack of
jurisdiction as the appeal is taken from and order that
is not final within the meaning of 28 U.S.C. § 1291 and
is not otherwise immediately appealable, and we
decline to exercise pendent appellate jurisdiction. See
In re Montgomery County, 215 F.3d 367, 375-76 (3d
Cir. 2000).
By the Court
s/ Kent A. Jordan
Circuit Judge
Dated: February 12, 2019
JK/cc: All counsel of Record
A True Copy:
s/ Patricia S. Dodszuweit
Clerk
Certified Order Issued in
Lieu of Mandate
(Dismissing 18-1603 only)

App.21a
OPINION OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF NEW JERSEY
(DECEMBER 19, 2017)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
IN RE: WILLIE GIBBONS, ET AL.,

Plaintiffs,
v.
NEW JERSEY STATE POLICE,
SERGEANT JAMES MCGOWAN, STATE
TROOPER NOAH BARTELT, STATE TROOPER
PHILLIP CONZA, STATE TROOPER MICHAEL
KOREJKO, STATE TROOPER DANIEL HIDER,

Defendants.
________________________
Civil Action No. 13-3530
Before: Hon. Joseph H. RODRIGUEZ, U.S.D.J.
This matter has come before the Court on motion
of Defendants for summary judgment pursuant to
Federal Rule of Civil Procedure 56. Oral argument on
the motion was heard on December 6, 2017 and the
record of that proceeding is incorporated here. For the
reasons set forth below, and those discussed during
oral argument, Defendants’ motion will be granted in
part and denied in part.

App.22a
Jurisdiction
This matter was removed to this Court from the
Superior Court of New Jersey, Law Division, Cumberland County. It is a civil action over which the district
court has original jurisdiction based on a question
“arising under the Constitution, laws, or treaties of
the United States.” See 28 U.S.C. § 1331. Here, Plaintiffs assert a violation of civil rights pursuant to 42
U.S.C. § 1983.
On Defendants’ prior motion, the Court found
that Plaintiffs sufficiently pled a case under 42 U.S.C.
§ 1983 for excessive force in violation of the Fourth
Amendment, withholding medical treatment in violation of the Fourteenth Amendment, a custom and
practice of treating persons of certain races or with
mental disabilities in a manner violative of their civil
rights and/or a failure to train officers to properly
handle situations involving those citizens (only insofar
as that claim seeks injunctive relief). The Court dismissed all other claims brought by the twelve-count
Second Amended Complaint.
Background
The matter arises out of the fatal police shooting
in Bridgeton, New Jersey of Willie Gibbons, an AfricanAmerican male diagnosed with schizophrenia. Plaintiffs are Arlane James, Gibbons’ mother; JRG, Gibbons’
minor son, by his mother and guardian Ikeya Crawford;
DKL, Gibbons’ minor son, by his mother and guardian
Angel Stephens; and LMG, Gibbons’ minor daughter,
by her mother and guardian Angel Stephens. Defendants are the New Jersey State Police, State Trooper
Noah Bartelt, State Trooper Daniel Hider, State

App.23a
Trooper Phillip Conza, State Trooper Michael Korejko,
Sergeant James McGowan.
Gibbons lived with Stephens and her mother in
Bridgeton, New Jersey. On the Tuesday evening of May
24, 2011, Gibbons and Stephens had an argument and
Stephens called 9-1-1 at about 10:24 p.m. with a
domestic dispute. (Freeman Decl. Ex. A, NJSP Computer-Aided Dispatch (“CAD”) Rpt. from 5/24/11 call.)
Dispatch noted that that Stephens reported “boyfriend
hit her” and “gun in his truck.” (Id.) The NJSP Investigation Report generated from this incident confirmed
that “Dispatch stated that a male struck a female and
that he has a gun in his truck.” (Freeman Decl. Ex. B,
NJSP Investigation Rpt.)
State Police Troopers responded and one frisked
Gibbons for the officers’ safety. (NJSP Investigation
Rpt.) Stephens informed the troopers that Gibbons
had prevented her from leaving the house, a struggle
ensued, and Gibbons put a hole in the wall with his
hand. (Id.) Both Gibbons and Stephens were asked to
report to the State Police Bridgeton Barracks to be
interviewed. (Id.) Because Stephens had accused Gibbons of having a gun, he was transported to the
barracks in a troop car. (Id.)
Both Stephens and Gibbons completed written
statements of the incident at the barracks. (Freeman
Decl. Ex. C.) Stephens informed an officer that earlier
in the day, Gibbons threatened to kill her with the gun
that she accused him of carrying in his truck. (NJSP
Investigation Rpt.) Indeed, Stephens’s written statement reports, “he threatened to kill me,” “he needs to
take his medicine,” and “I need a restraining order.”
(Freeman Decl. Ex. C, Stephens Stmt.) Further, during
her deposition, Stephens recalled telling a trooper that

App.24a
Gibbons threatened to kill her with a gun that he
was carrying in his truck. (Sterling Rev. Cert. Ex. 22,
Stephens Dep., 103:17-22.) Gibbons denied making such
a statement and insisted he did not have a gun. (NJSP
Investigation Rpt.) Nonetheless, at about 1:50 a.m. on
May 25, 2011, a restraining order was issued against
Gibbons and served upon him. (5/24/11 CAD Rpt.;
Freeman Decl. Ex. D, TRO.) The restraining order
prohibited Gibbons from “returning to the scene of the
violence” and “possessing any and all firearms.” (TRO.)
The issuing judge also authorized a search of Gibbons’s
truck, but no weapons were found. (5/24/11 CAD Rpt.)
On Wednesday, May 25, 2011, Gibbons delivered
a citizen complaint on a NJSP form indicating that he
felt he had been harassed the previous night. (Freeman
Decl. Ex. F, Citizen Compl.) When Korejko began his
shift on May 25, 2011, he was informed that Gibbons
had filed a complaint during the previous shift. (Freeman Decl. Ex. E; Sterling Rev. Cert. Ex. 9, Korejko Dep.,
104:19-21.) Later that Wednesday evening, Gibbons
called for a police escort to retrieve some items from
Stephens’s house–specifically, his drill, TV, and bed,
among other items. (Korejko Dep., 59:4-60:7.) Korejko
informed Gibbons that for that amount of time to be
spent at the residence, he would have to get permission from the judge because he was under a restraining
order. (Id.)
Gibbons went to Stephens’s house, but ended up
leaving without his possessions. While Gibbons was
there, Stephens was on the phone with her friend,
Clarence Dunns, who called the State Police at 8:24
p.m. to report that Gibbons and Stephens were arguing
despite the restraining order that prohibited Gibbons
from contacting Stephens. (Freeman Decl. Ex. G,

App.25a
Dunns recording; Freeman Decl. Ex. H, 5/25/2011
CAD Rpt. (“CAD2”).)1 Conza responded to Stephens’s
house as a result of the call. (CAD2.)
Stephens advised Conza that Gibbons had arrived
at her residence, insisting that she go downstairs to
retrieve his drill; the “whole time he was at the front
door, he had a gun, a handgun in his hand that he was
waving around.” (Freeman Decl. Ex. N, Sterling Rev.
Cert. Ex. 7, Conza Dep., 81:2-6.) Conza reported over
the State Police radio that Gibbons had brandished a
gun. (Conza Dep., 82:11-16.)2 After speaking to Stephens, Conza told her to go to the State Police barracks
to lodge a complaint and he headed to Gibbons’s mother’s
house, where he met Bartelt and Korejko. (Freeman
Decl. Ex. M, Bartelt Dep., 59:7-61:1.)
On her way to the barracks, Stephens saw Gibbons
walking on the 400 Block of North Burlington Road
and contacted the State Police, describing what Gibbons
was wearing.3 (Bartelt Dep., 62:24-63:16.) Dispatch
asked if she saw a gun and Stephens responded that
1 The 5/25/11 CAD Report reflects in the notes for the date and
time, “05/25/2011 20:34:04” “REPORTS ANGEL STEVENSON
AND A WILLIE GIBBONS ARGUING IN FRONT YARD.
REPORTS POSS REST ORDER IN EFFECT.” (CAD2, p. 6.)
2 The 5/25/11 CAD Report reflects in the notes for the date and
time, “05/25/2011 20:41:15” “STEVENSON REPORTED PRIOR
TO TROOPER ARRIVING WILLIE CAME TO DOOR WITH A
GUN. SAME DEPARTED UNK DIRECTION IN A FORD F150
BLK.” (CAD2, p. 6.)
3 The CAD Report reflects in the notes for the date and time,
“05/25/2011 21:07:50” “ANGEL ON PHONE ADVISED SHE
PASSED WILLIE ON BURLINGTON RD AREA OF INDIAN
RUN.” Further, at “05/25/2011 21:08:33,” “SAME IS WEARING
BK JACKET WITH YELLOW,BLU JEANS” (CAD2, p. 6.)

App.26a
Gibbons had a back pack, she did not see a gun at
that time, although she earlier told a trooper that he
possessed a gun. (Sterling Rev. Cert. Ex. 22, Stephens
Dep. 123:9-125:23.)
Korejko, Bartelt, Conza, and Hider responded to
the Burlington Road location. Hider passed Gibbons
walking on North Burlington Road, but did not report
seeing a gun. He radioed the other officers4 and turned
around down the road to return to the scene. (Freeman
Decl. Ex. L, Sterling Rev. Cert. Ex. 16, Hider Dep.,
56:14-65:13.) Bartelt saw Gibbons walking northbound
on the southbound side of Burlington Road wearing
jeans and a black jacket that had yellow, reflective
lettering on it, carrying a book bag. (Bartelt Dep.,
83:10-15.) At that time, Bartelt was unaware that
Gibbons had filed a citizen complaint earlier. (Id.,
68:4-21.) Bartelt had his window down and heard
Gibbons say “stay away from me.” (Id., 83:17-84:15.)
Bartelt parked, angling his troop car in the southbound lane of travel, facing any oncoming traffic (which
was non-existent at the time), and said something to
the effect of “come over here.” (Id., 85:4-14.) At that
point, Bartelt testified that Gibbons turned around
and pointed a gun in his left hand to his own head,
again saying “stay away from me.” (Id., 85:15-19; 88:2425; 109:6-17.) Bartelt instructed Gibbons “to drop it.”
(Id., 89:1-5.) Gibbons did not do anything, but may
have continued “to say stay away from me.” (Id., 89:6-9.)
Bartelt estimated that Gibbons was anywhere between
4 The CAD Report reflects in the notes for the date and time,
“05/25/2011 21:08:11” “SAME WALKING ON FOOT HEADING
TOWARD STATION ON SOUTHBOUND SIDE OF BURLINGTON.”
(CAD2, p. 6.)

App.27a
seven and fourteen or fifteen yards away. (Id., 89:1417.) At that point, Bartelt exited his vehicle, placed
himself inside the door jamb of his car, and drew his
weapon. (Id., 89:18-90:19.)
When Conza arrived on the scene, Bartelt had his
door open and gun drawn, yelling commands at Gibbons; Conza could only see the right side of Gibbons’s
body.5 (Conza Dep., 97:21-98:22.) As he exited his troop
car, Conza yelled to Bartelt “does he have a gun?
Does he have a gun?” (Id., 101:23-102:10.) Bartelt was
yelling, but Conza could not tell if he was responding
to him or yelling commands at Gibbons. (Id.) “Two
shots were fired and [Conza] observed the recoil in
Officer Bartelt at that point.” (Id.) Conza then ran
toward Gibbons to secure him. (Conza Dep., 102:21-23;
104:6-8.) Conza observed a gun to Gibbons’s left side.
(Id., 104:22-105:8.) He called dispatch to request an
ambulance and relayed that Gibbons had been shot in
the chest and needed immediate medical attention.
(Id., 120:6-121-4.) Bartelt had shot Gibbons twice; a
third attempt was thwarted by his handgun jamming.
(Bartelt Dep., 93:2-94:2.)
Korejko and Hider arrived at the scene after the
shooting. (Korejko Dep., 72:3-19; Hider Dep., 65:1423).6 While stile driving, Korejko saw Gibbons standing
5 When asked during his deposition about his prior statement to
the State Police, Conza agreed that he stated as he exited his
troop car, he observed the male standing with one arm up. However, he stated “I don’t recall which arm it was, but if I could only
observe the right side of his body--[at that point he was interrupted
and did not finish his statement]. (Conza Dep., 182:19-183:9.)
6 The CAD Report reflects in the notes for the date and time,
“05/25/2011 21:09:47” “REQ EMS BURLINGTON PAST IRVING/
SUSPECT BRANDISHED WEAPON/SUSPECT WAS SHOT/

App.28a
then fall to the ground. (Korejko Dep., 72:3-19.) When
asked how far behind the other two officers he was,
Korejko’s response was “it all happened in seconds.”
(Id. 72:20-22.) Korejko assisted Conza in putting
handcuffs on Gibbons behind his back. (Id., 78:1279:3; 80:10-12.) He “immediately contacted OAU for
the ambulance to respond in an expedited manner”
and applied pressure to Gibbons’s wound while trying
to keep him verbally engaged and conscious. (Korejko
Dep., 83:10-84:7.) During this time, Gibbons told
Korejko that “he didn’t pull the trigger.” (Korejko
Dep., 84:8-9.)7 When EMS arrived, Korejko asked his
supervisor whether he had permission to remove the
handcuffs from Gibbons’s hands for treatment. He
then moved the handcuffs from Gibbons’s back to his
front in order for the paramedics to insert an IV. (Id.,
87:1-11.)
Records from Bridgeton Emergency Medical
Services (EMS) reflect that at 9:10 p.m., EMS received
a call and was dispatched to Burlington Road to the
scene of the shooting; EMS arrived at 9:14 p.m.
(Freeman Decl. Ex. P, Sterling Rev. Cert. Ex. 15, EMS
Rpt. p.1). Records from Inspira Health Network reflect
that they were dispatched at 9:10 p.m., and arrived at
9:17 p.m. (Freeman Decl., Ex. Q, Inspira Rpt. p.2).
Records from Bridgeton EMS and Inspira reflect that at
9:25 P.M., they left the scene with Gibbons, transporting him to a helicopter for medical evacuation to
TROOPERS OK/REQ EMS.” (CAD2, p. 6.)
7 Simultaneously, Bartelt cleared Gibbons’s handgun and handed
it to Hider; the gun ultimately was secured in Bartelt’s trunk.
(Korejko Dep., 82:7-25; Bartelt Dep., 101:5-24; Hider Dep., 68:1569:4.)

App.29a
Cooper Hospital. (EMS Rpt.; Inspira Rpt.) Emergency
Medical Technician Brian Marks testified that when
Gibbons was on the stretcher, he told Marks that he
has no allergies, he takes Abilify, and that he “didn’t
pull the trigger.” (Sterling Rev. Cert. Ex. 16, Marks
Dep., 42:17-43:12; accord EMS Rpt.) EMT Christopher
Lamkin testified there was no delay in any of Gibbons’s
medical care. (Reply Decl Ex. C, Lamkin Dep., 80:4-5.)
In a nearby residence, Joanne Leyman was sitting
in her living room at about 9 p.m. or a little after 9
when she heard “pop pop.” (Sterling Rev. Cert. Ex. 24,
Leyman Dep., 8:9-18.) When she looked out her bedroom window, she saw a trooper leaning over someone
saying “Willie can you hear me, Willie can you hear
me.” (Id., 8:21-24.) From her bedroom window, Leyman
did not see a gun. (Id., 9:22-10:2.)
Gibbons was pronounced dead at 1:28 a.m. on
Thursday, May 26.
Summary Judgment Standard
“Summary judgment is proper if there is no
genuine issue of material fact and if, viewing the facts
in the light most favorable to the non-moving party,
the moving party is entitled to judgment as a matter
of law.” Pearson v. Component Tech. Corp., 247 F.3d
471, 482 n.1 (3d Cir. 2001) (citing Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986)); accord Fed. R. Civ.
P. 56 (a). Thus, the Court will enter summary judgment
in favor of a movant who shows that it is entitled to
judgment as a matter of law, and supports the
showing that there is no genuine dispute as to any
material fact by “citing to particular parts of materials
in the record, including depositions, documents, electronically stored information, affidavits or declarations,

App.30a
stipulations . . . admissions, interrogatory answers, or
other materials.” Fed. R. Civ. P. 56 (c)(1)(A).
An issue is “genuine” if supported by evidence
such that a reasonable jury could return a verdict in
the nonmoving party’s favor. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248 (1986). A fact is
“material” if, under the governing substantive law, a
dispute about the fact might affect the outcome of the
suit. Id. In determining whether a genuine issue of
material fact exists, the court must view the facts and
all reasonable inferences drawn from those facts in
the light most favorable to the nonmoving party.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986).
Initially, the moving party has the burden of
demonstrating the absence of a genuine issue of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986). Once the moving party has met this burden,
the nonmoving party must identify, by affidavits or
otherwise, specific facts showing that there is a
genuine issue for trial. Id.; Maidenbaum v. Bally’s Park
Place, Inc., 870 F. Supp. 1254, 1258 (D.N.J. 1994).
Thus, to withstand a properly supported motion for
summary judgment, the nonmoving party must identify
specific facts and affirmative evidence that contradict
those offered by the moving party. Andersen, 477 U.S.
at 256-57. “A nonmoving party may not ‘rest upon
mere allegations, general denials or . . . vague statements. . . . ’” Trap Rock Indus., Inc. v. Local 825, Int’l
Union of Operating Eng’rs, 982 F.2d 884, 890 (3d Cir.
1992) (quoting Quiroga v. Hasbro, Inc., 934 F.2d 497,
500 (3d Cir. 1991)). Indeed,
the plain language of Rule 56(c) mandates the
entry of summary judgment, after adequate

App.31a
time for discovery and upon motion, against
a party who fails to make a showing sufficient
to establish the existence of an element
essential to that party’s case, and on which
that party will bear the burden of proof at
trial.

Celotex, 477 U.S. at 322. That is, the movant can support the assertion that a fact cannot be genuinely
disputed by showing that “an adverse party cannot
produce admissible evidence to support the [alleged
dispute of] fact.” Fed. R. Civ. P. 56(c)(1)(B); accord Fed.
R. Civ. P. 56(c)(2).
In deciding the merits of a party’s motion for summary judgment, the court’s role is not to evaluate the
evidence and decide the truth of the matter, but to
determine whether there is a genuine issue for trial.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249
(1986). Credibility determinations are the province of
the factfinder. Big Apple BMW, Inc. v. BMW of N. Am.,
Inc., 974 F.2d 1358, 1363 (3d Cir. 1992).
Discussion
42 U.S.C. § 1983
Plaintiffs’ Constitutional claims are governed by
Title 42 U.S.C. § 1983, which provides a civil remedy
against any person who, under color of state law,
deprives another of rights protected by the United
States Constitution. See Collins v. City of Harker
Heights, 503 U.S. 115, 120 (1992). Any analysis of 42
U.S.C. § 1983 should begin with the language of the
statute:
Every person who, under color of any statute,

App.32a
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit
in equity, or other proper proceeding for
redress.

See 42 U.S.C. § 1983.
As the above language makes clear, Section 1983
is a remedial statute designed to redress deprivations
of rights secured by the Constitution and its subordinate federal laws. See Baker v. McCollan, 443 U.S.
137, 145 n.3 (1979). By its own words, therefore,
Section 1983 “does not . . . create substantive rights.”
Kaucher v. County of Bucks, 455 F.3d 418, 423 (3d
Cir. 2006) (citing Baker, 443 U.S. at 145, n.3).
To state a cognizable claim under Section 1983, a
plaintiff must allege a “deprivation of a constitutional
right and that the constitutional deprivation was
caused by a person acting under the color of state
law.” Phillips v. County of Allegheny , 515 F.3d 224,
235 (3d Cir. 2008) (citing Kneipp v. Tedder, 95 F.3d
1199, 1204 (3d Cir. 1996)). Thus, a plaintiff must
demonstrate two essential elements to maintain a
claim under § 1983: (1) that the plaintiff was deprived
of a “right or privileges secured by the Constitution or
the laws of the United States” and (2) that plaintiff
was deprived of his rights by a person acting under
the color of state law. Williams v. Borough of West
Chester, Pa., 891 F.2d 458, 464 (3d Cir. 1989).

App.33a
Moreover, the United States Supreme Court has
held that “neither a State nor its officials acting under
their official capacities are ‘persons’ under § 1983.”
Will v. Michigan Dep’t of State Police, 491 U.S. 58, 71
(1989). As such, an employee of the state named as a
defendant in a civil rights action may be held liable
only if that person has personal involvement in the
alleged wrongs and is sued in their personal capacity.
See Hafer v. Melo , 502 U.S. 21, 31 (1991) (“state
officials, sued in their individual capacities, are
‘persons’ within the meaning of § 1983”).
Qualified Immunity
The doctrine of qualified immunity provides that
“government officials performing discretionary functions . . . are shielded from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person should have known.” Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982). Thus, government
officials are immune from suit in their individual
capacities unless, “taken in the light most favorable to
the party asserting the injury, . . . the facts alleged
show the officer’s conduct violated a constitutional
right” and “the right was clearly established” at the
time of the objectionable conduct. Saucier v. Katz, 533
U.S. 194, 201 (2001). Courts may exercise discretion
in deciding which of the two prongs of the qualified
immunity analysis should be addressed first in light
of the circumstances in the particular case at hand.
Pearson v. Callahan, 555 U.S. 223, 236 (2009).
This doctrine “balances two important interests—
the need to hold public officials accountable when they
exercise power irresponsibly and the need to shield

App.34a
officials from harassment, distraction, and liability
when they perform their duties reasonably” and it
“applies regardless of whether the government official’s
error is a mistake of law, a mistake of fact, or a
mistake based on mixed questions of law and fact. Id.
(internal quotation omitted). Properly applied, qualified
immunity “protects ‘all but the plainly incompetent or
those who knowingly violate the law.’” Ashcroft v. alKidd, 5623 U.S. 731, 743 (2011) (quoting Malley v.
Briggs, 475 U.S. 335, 341 (1986)).
For a right to be clearly established, “[t]he contours of the right must be sufficiently clear that a reasonable official would understand that what he is
doing violates that right.” Saucier, 533 U.S. at 202
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)). That is, “[t]he relevant, dispositive inquiry in
determining whether a right is clearly established is
whether it would be clear to a reasonable officer that
his conduct was unlawful in the situation he confronted.” Couden v. Duffy, 446 F.3d 483, 492 (3d Cir,
2006). “If the officer’s mistake as to what the law requires is reasonable,” the officer is entitled to qualified
immunity. Id. (internal citations omitted). Further, “[i]f
officers of reasonable competence could disagree on
th[e] issue, immunity should be recognized.” Malley,
475 U.S. at 341. See also Brosseau v. Haugen, 543 U.S.
194, 198 (2004) (The general touchstone is whether the
conduct of the official was reasonable at the time it
occurred.). Finally, because qualified immunity is an
affirmative defense, the burden of proving its applicability rests with the defendant. See Beers-Capital v.
Whetzel, 256 F.3d 120, 142, n.15 (3d Cir. 2001).

App.35a
Fourth Amendment
The Fourth Amendment provides:
The right of the people to be secure in their
persons, houses, papers and effects, against
unreasonable searches and seizures, shall
not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath
or affirmation, and particularly describing
the place to be searched, and persons or
things to be seized.
A Fourth Amendment excessive force claim calls
for an evaluation of whether police officers’ actions are
objectively reasonable in light of the facts and circumstances confronting him. Graham v. Conner, 490 U.S.
386, 397 (1989). While the question of reasonableness
is objective, the court may consider the severity of the
crime at issue, whether the suspect poses an immediate
threat to the safety of the officers or others, and
whether the suspect is actively resisting arrest or
attempting to evade arrest by flight. Id. In a claim for
excessive force, “the central question is ‘whether force
was applied in a good faith effort to maintain or
restore discipline, or maliciously and sadistically to
cause harm.’” Brooks v. Kyler, 204 F.3d 102, 106 (3d
Cir. 2000) (quoting Hudson v. McMillian, 503 U.S. 1,
7 (1992)).
Furthermore, appropriate attention should be
given “to the circumstances of the police action, which
are often ‘tense, uncertain, and rapidly evolving.’”
Groman v. Township of Manalapan, 47 F.3d 628, 634
(3d Cir. 1995) (quoting Graham, 490 U.S. at 396). See
also Graham, 490 U.S. at 396-97 (analyzing reason-

App.36a
ableness of use of force “from the perspective of a reasonable officer on the scene, rather than with the
20/20 vision of hindsight”).
“Whether or not [an officer’s] actions constituted
application of ‘deadly force,’ all that matters is whether
[the officer’s] actions were reasonable.” Scott v. Harris,
550 U.S. 372, 383 (2007). The reasonableness of a
seizure is assessed in light of the totality of the circumstances. Abraham v. Raso, 183 F.3d 279, 289 (3d Cir.
1999).
Analysis
Excessive Force by Bartelt
The Garner deadly force analysis applies in this
case. See Connor v. Thompson, 647 F. App’x 231, 237
(4th Cir. 2016) (applying Garner to deadly force used
on a suicidal subject); Weinmann v. McClone, 787 F.3d
444, 448 (7th Cir. 2015) (applying Garner to deadly
force used on a suicidal subject); Glenn v. Washington
County, 673 F.3d 864, 876 (9th Cir. 2011) (applying
Garner to deadly force used on a suicidal subject, and
explaining “[e]ven when an emotionally disturbed individual is ‘acting out’ and inviting officers to use deadly
force, the governmental interest in using such force is
diminished by the fact that the officers are confronted,
not with a person who has committed a serious crime
against others, but with a mentally ill individual”).
The Court therefore proceeds with a qualified
immunity analysis regarding Officer Bartelt’s use of
deadly force. First, Willie Gibbons’s right to be free
from excessive, deadly force was clearly established on
the night of the shooting. “It has long been the law
that an officer may not use deadly force against a

App.37a
suspect unless the officer reasonably believes that the
suspect poses a threat of serious bodily injury to the
officer or others.” Lamont v. New Jersey, 637 F.3d 177,
185 (3d Cir. 2011) (Further noting “the dispute in this
case is about the facts, not the law. The doctrine of
qualified immunity is therefore inapposite.”) See also
Connor, 647 F. App’x at 239 (“Garner . . . constitutes
sufficient notice to bar qualified immunity in this
case.”); Weinmann, 787 F.3d at 450 (“Graham and
Garner stand for the proposition that a person has a
constitutional right not to be shot unless an officer
reasonably believes that he poses a threat to the
officer or someone else. The court of appeals cases are
even more specific: they say that officers may not use
deadly force against suicidal people unless they
threaten harm to others, including the officers.”).
Next, the Court turns to whether Bartelt’s use of
deadly force was objectively reasonable, given the
totality of the circumstances, with the belief that
Gibbons posed a significant threat of death or serious
physical injury to either Bartelt or another person.
“[H]olding a weapon in a non-threatening position
while making no sudden moves fails to support the
proposition that a reasonable officer would have had
probable cause to feel threatened.” Connor, 647 F. App’x
at 237-38. Accord Weinmann, 787 F.3d at 449 (in a
suicidal subject deadly force case, affirming the district
court’s denial of summary judgment observing, among
other things, that “the way in which [the plaintiff] was
holding the gun is disputed.”). The Third Circuit Court
of Appeals reversed a district court’s finding that
qualified immunity shielded a state trooper’s use
deadly force against a suspect from a distance of
eighty yards after a prolonged standoff, where the

App.38a
suspect was facing away from the trooper with a gun
pointed at his own head, but had begun to advance
toward fellow officers who were closer to him. Bennett
v. Murphy, 120 F. App’x 914 (3d Cir. 2005). The Circuit
questioned whether the trooper was faced with an
immediate threat of death or physical injury. Id. at
918 (finding it had been clearly established that “[l]aw
enforcement officers may not kill suspects who do not
pose an immediate threat to their safety or the safety
of others simply because they are armed”).
Similarly, here, genuine issues of disputed fact
prevent the Court from holding that Trooper Bartelt
was reasonable in his belief that Gibbons posed a
danger to him or someone else to warrant an entitlement to qualified immunity on Plaintiffs’ claim for
excessive force in violation of the Fourth Amendment.
Summary judgment on that claim against Bartelt will
be denied.
Failure to Intervene
Regarding the merits of Plaintiffs’ claim for failure
to intervene, “a police officer has a duty to take reasonable steps to protect a victim from another officer’s
use of excessive force, even if the excessive force is
employed by a supervisor.” Smith v. Mensinger, 293
F.3d 641, 650-51 (3d Cir. 2002) (citing Putnam v.
Gerloff, 639 F.2d 415, 423-24 (8th Cir. 1981) (liability
exists only if the non-intervening officer saw the
beating or had time to reach the offending officer)).
In this case, the record indicates that Conza did
not have a realistic and reasonable opportunity to
intervene. Conza did not know whether Gibbons was
armed; as Conza yelled to Bartelt, asking if Gibbons
was armed, he heard two shots and he observed the

App.39a
recoil from Bartelt’s gun. After that, he saw Gibbons
fall to the ground and he immediately approached
Gibbons, began handcuffing him, and called dispatch
for an ambulance. Korejko and Hider arrived at the
scene after Gibbons had been shot. McGowan did not
go to the scene of the shooting. (Freeman Decl., Ex. W,
30:23-31:11.)
Delay of Medical Care
Officers are under a duty to render emergency
medical assistance to those in their custody. Rosario
v. Union City Police Dep’t, 131 F. App’x 785 (3d Cir.
2005). The Eighth Amendment’s “deliberate indifference” standard applies, through the Fourteenth Amendment, to a claim that an arrestee was delayed in
receiving medical attention. See, e.g., City of Revere v.
Massachusetts Gen. Hosp., 463 U.S. 239, 244 (1983)
(noting that “the due process rights of a person [who
was injured while being apprehended by the police]
are at least as great as the Eighth Amendment protections available to a convicted prisoner”). To succeed
under the “deliberate indifference” standard, a plaintiff
must prove: (1) that his medical needs were “objectively
serious”8 and (2) that the defendants exhibited “deliberate indifference” to Plaintiff’s medical needs. Monmouth County Correctional Inst. Inmates v. Lanzaro,

8 A “serious medical need” is “one that has been diagnosed by a
physician as requiring treatment or one that is so obvious that a
lay person would easily recognize the necessity for a doctor’s
attention” or “where the denial of treatment would result in the
unnecessary and wanton infliction of pain or a life-long handicap
or permanent loss.” Atkinson v. Taylor, 316 F.3d 257, 272–73 (3d
Cir. 2003) (internal citations omitted).

App.40a
834 F.2d 326, 346 (3d Cir. 1987) (citing Estelle v.
Gamble, 429 U.S. 97, 104 (1976)).
There is no doubt that Gibbons had a serious
medical need. The record reflects, however, that immediate attention was given to his medical need; there
was no delay and certainly no support in the record
for a finding of deliberate indifference. Upon seeing
that Gibbons had been shot, Conza called dispatch to
request an ambulance for “immediate” medical attention. Korejko testified that on his arrival at the scene,
he also “immediately contacted OAU for the ambulance
to respond in an expedited manner,” and then he
administered aid to Gibbons while waiting for the
ambulance to arrive. EMS records indicate that within
minutes, Gibbons was transported by helicopter to an
appropriate facility. Therefore, summary judgment
will be granted for the defense as to Plaintiffs’ claim
of withholding medical treatment in violation of the
Fourteenth Amendment. NJSP
Finally, there is no record evidence of any custom
or practice by the New Jersey State Police that would
tend to indicate a violation of citizens’ civil rights
and/or a failure to train officers. Summary judgment
is granted as to any such claim.
Conclusion
In summary, Plaintiffs’ claim against Defendant
Bartelt for excessive force in violation of the Fourth
Amendment will survive. Summary judgment will be
granted as to all other claims.

App.41a
An appropriate Order will be filed.
/s/ Joseph H. Rodriguez
U.S.D.J.
Dated: December 19, 2017

App.42a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(AUGUST 6, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
IN RE: WILLIE GIBBONS; ARLANE JAMES,
J.R.G., A MINOR, BY HIS MOTHER AND LEGAL GUARDIAN,
IKEYA CRAWFORD; D.K.L., A MINOR, BY HIS MOTHER
AND LEGAL GUARDIAN, ANGEL STEPHENS;
L.M.G., A MINOR, BY HER MOTHER AND LEGAL
GUARDIAN, ANGEL STEPHENS,
v.
NEW JERSEY STATE POLICE, ET AL.,
and
NOAH BARTELT,

Appellant.
________________________
No. 18-1432
(D.C. Civil No. 1-13-cv-03530)
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY,
and PHIPPS, Circuit Judges.

App.43a
The petition for rehearing filed by Appellees in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied. Judges McKee, Ambro, Jordan, Greenaway,
Jr., Krause and Restrepo would grant rehearing by
the court en banc. Judge McKee files the attached
dissenting opinion sur rehearing, which is joined by
Judges Ambro, Greenaway, Jr., Krause and Restrepo.
By the Court,
/s/ David J. Porter
Circuit Judge
Dated: August 6, 2020
JK/cc: All Counsel of Record

App.44a
CIRCUIT JUDGES JOIN DISSENTING OPINION
ON SUR DENIAL OF REHEARING EN BANC
(AUGUST 6, 2020)
McKEE, Circuit Judge, with whom AMBRO,
GREENAWAY, JR., KRAUSE, and RESTREPO, Circuit
Judges, join, dissenting.
Today, we deny the Petition for Rehearing in this
case even though our Opinion squarely contradicts
controlling precedent established by our decision in
Bennett v. Murphy.1 There, under circumstances substantively identical to those here, we held that “[if the
victim] had stopped advancing and did not pose a
threat to anyone but himself, the force used against
him, i.e. deadly force, was objectively excessive[,]”
and thus unreasonable.2 Bennett has been the law of
this Circuit for eighteen years. The victim here posed
no greater threat than the victim in Bennett. Yet, now
we hold that Trooper Noah Bartelt is entitled to
qualified immunity as a matter of law. We reach that
conclusion even though Willie Gibbons, the victim
here, was pointing a gun at his own head when fatally
shot by Bartelt. There has been no intervening change
in the law in the eighteen years since we decided
Bennett, and our Opinion here does not suggest
otherwise.
We can take some solace in the fact that, absent
a substantive distinction between the facts here and
those in Bennett, the rules of this Circuit dictate that
Bennett continues to control and the decision here is
1 274 F.3d 133 (3d Cir. 2002).
2 Id. at 136.

App.45a
a nullity insofar as it purports to reach a holding that
is contrary to our decision in Bennett.3 A unanimous en
banc court recently affirmed that “[w]e adhere strictly
to that tradition.”4 Nevertheless, as six judges of this
Court agree, institutionally it would be far better for
us to grant this petition for rehearing so that we could
resolve the tension between this Opinion and Bennett
en banc.5 I therefore must dissent from our failure to
do so.

3 3d Cir. I.O.P. 9.1 (2018) (“It is the tradition of this court that
the holding of a panel in a precedential opinion is binding on
subsequent panels. Thus, no subsequent panel overrules the
holding in a precedential opinion of a previous panel. Court en
banc consideration is required to do so.”).
4 Joyce v. Maersk Line Ltd, 876 F.3d 502, 508 (3d Cir. 2017) (en
banc) (quoting In re Grossman’s Inc., 607 F.3d 114, 117 (3d Cir.
2010) (en banc)); see also Pardini v. Allegheny Intermediate
Unit, 524 F.3d 419, 426 (3d Cir. 2008) (“[T]his Circuit has long
held that if its cases conflict, the earlier is the controlling authority and the latter is ineffective as precedents”) (citation omitted);
Holland v. N.J. Dep’t of Corr., 246 F.3d 267, 278 n.8 (3d Cir.
2001) (“[T]o the extent that [a panel decision] is read to be inconsistent with earlier case law, the earlier case law. . . controls”);
O. Hommel Co. v. Ferro Corp., 659 F.2d 340, 354 (3d Cir. 1981)
(citing Third Circuit Internal Operating Procedures to explain
that “a panel of this court cannot overrule a prior panel precedent. . . . To the extent that [a later case] is inconsistent with [an
earlier panel decision, the later decision] must be deemed
without effect”).
5 See Fed. R. App. P. 35(a)(1) (explaining that en banc review
was created to resolve such inconsistencies, in order to allow the
legal community and the public to rely upon the “uniformity of
the court’s decisions”).

App.46a
I.

The Facts of Bennett and James

Assuming the truth of these allegations (as we
must on summary judgment review),6 the relevant
circumstances surrounding the shooting of Willie
Gibbons here, and David Bennett in Bennett v.
Murphy, are indistinguishable.
A. Bennett
On the evening of January 4, 1994, Pennsylvania
State Police responded to a domestic dispute call in
Greenburg, Pennsylvania.7 David Bennett, a 25-yearold volunteer firefighter, had told his girlfriend that
he was going to kill himself after discovering her with
another man.8 His girlfriend called 911.9 When police
arrived, they found Bennett standing in the courtyard
outside of her apartment holding a shotgun pointed
vertically at his own head. He repeated to the police
that he wanted to kill himself.10
A standoff began, which lasted for over an hour.
Finally, as police began to encircle Bennett, he became
agitated and started walking towards the officers.
When they ordered him to halt, he stopped moving.
Four seconds later, a police sharpshooter, Francis
6 Tolan v. Cotton, 572 U.S. 650, 657 (2014) (citing Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 249 (1986)).
7 Bennett, 274 F.3d at 134; id. at 135 n.2.
8 Torsten Ove, Retrial Set for Trooper in Fatal Shooting, PITT.
POST-GAZETTE (Mar. 14, 2005), https://www.post-gazette.com/
uncategorized/2005/03/14/Retrial-set-for-trooper-in-fatalshooting/stories/200503140131.
9 Id.
10 Bennett v. Murphy, 127 F. Supp. 2d 689, 690 (W.D. Pa. 2000).

App.47a
Murphy, fatally shot Bennett. When Murphy opened
fire, he was outside of the police cordon and approximately 80 feet away from Bennett.11
Bennett’s estate brought a civil rights action under
42 U.S.C. § 1983 alleging police had used excessive
force. The District Court denied the defendant officer’s
motion for summary judgment based on qualified
immunity and the officer appealed. In affirming the
denial of summary judgment and remanding for trial,
we held: “[i]f, as the plaintiff’s evidence suggested,
David Bennett had stopped advancing and did not pose
a threat to anyone but himself, the force used against
him, i.e. deadly force, was objectively excessive.”12
B. James (the current case)
In late May of 2011, Angel Stephens became concerned that her boyfriend, Willie Gibbons, had stopped
taking his medication for schizophrenia. Stephens
called the police after she and Gibbons had an argument.13 However, when police arrived at their house,
they could not initially identify who was the victim as
the statements of Gibbons and Stephens conflicted.14
Police told Stephens that she could not get a restraining order because “there was no fighting or nothing
done,” unless Gibbons had threatened her “with a
knife or a gun.”15
11 Id. at 690-91.
12 Bennett, 274 F.3d at 136 (emphasis added).
13 Plaintiffs-Appellees’ (PA) App. 224-27.
14 A72.
15 PA192.

App.48a
At that point, Stephens for the first time accused
Gibbons of threatening her with a gun.16 Police then
questioned Gibbons, but he denied threatening
Stephens.17 Police searched Gibbons’ truck for weapons
before leaving the scene; they found none.18 Thereafter,
Stephens did obtain a restraining order from Municipal
Court prohibiting Gibbons from possessing firearms
or returning to the shared house.19 The police escorted
Gibbons back to the house to retrieve essential items
and informed him that he would need to “request a
police escort” to go there again.20
The next day, May 25, Gibbons returned to the
police station to file a Citizen’s Complaint based upon
the events of the previous night. He alleged that police
had harassed him.21 Later that day, while working
with his father, Gibbons discovered he had left a tool
that he needed in the shared house. As previously
instructed, Gibbons called to ask for a police escort in
order to retrieve the tool. Trooper Michael Korejko
answered the phone. Korejko knew that Gibbons had
filed a complaint against the police.22 When Gibbons
explained that he needed to get his drill and other
16 Id.
17 A72.
18 A73. Later, Gibbons’ mother also searched the truck because
she feared that police would plant a gun on Gibbons. See PA20001.
19 A77-79.
20 A73.
21 PA419.
22 A13.

App.49a
items from the house, Korejko declined to help, saying
“we are pretty busy.”23 He now told Gibbons that he
was not “allowed over there unless [he had] a court
order from a judge to get those items.”24
Gibbons then tried to call Stephens. When he could
not get her on the phone, he went to the house to ask
her for the drill he needed.25 Stephens was on the
telephone with a friend when Gibbons arrived, and
the friend took it upon himself to call the police.26
Even though Stephens’ friend only told police that
“he’s out there in front of her house,” the dispatcher
inexplicably told the officer who eventually responded
that Gibbons had “showed up [at the house], with a
handgun . . . ”27
When Trooper Phillip Conza arrived at Stephens’
house, he told Stephens he had heard that Gibbons
had a gun.28 Stephens did not express any concern for
her safety.29 Nevertheless, Conza suggested she come
down to the police station.30 As she drove to the
station, Stephens passed Gibbons walking on the side
of the road. She called the police to report that he was
headed towards the police station, believing he was
23 PA92.
24 Id.
25 PA239.
26 PA18-19.
27 PA19-20.
28 PA243.
29 PA249.
30 Id.

App.50a
likely going there to turn himself in.31 The dispatcher
asked Stephens whether Gibbons had a gun and
Stephens told the officer that she hadn’t seen him
holding one.32 The dispatcher then asked whether she
had seen a gun earlier and Stephens confirmed that
she had.33
Hearing that a gun might be involved, Bartelt,
who was on desk duty at the state police barracks,
asked for permission to “head that way” in order to
look for Gibbons.34 Four officers in the area then
converged on the sparsely populated stretch of road
where Stephens had indicated she saw Gibbons.
Trooper Daniel Hider was the first to arrive, and he
saw someone matching Gibbons’ description.35 Rather
than immediately confront him, Hider decided to continue driving and made an immediate right turn to
loop back so he could get in front of Gibbons.36
Bartelt was only a few blocks away when he
heard Hider report a sighting. Conza, who had spoken
with Stephens earlier, was directly behind Bartelt in
another car, and Korejko was moments behind the
two of them.37 The video camera in Bartelt’s car was

31 PA250-51.
32 PA22-23.
33 PA251-53.
34 PA281.
35 A121.
36 A126.
37 PA295, A85.

App.51a
active, but as he proceeded towards Gibbons’ location,
Bartelt inexplicably manually disabled his camera.38
Driving northbound, Bartelt immediately identified
Gibbons from across the street. Gibbons was also
heading northbound on foot at “a normal” walking
pace on the other side of the road.39 Bartelt slowed
and rolled down his window; Gibbons noticed him and
said clearly, without shouting, “stay away from me.”40
Bartelt responded by driving his car across the double
yellow line, directly towards Gibbons on the far side of
the road. Gibbons repeated, “stay away from me,”41
and Bartelt ignored him. Instead, he instructed
Gibbons to “come over here.”42
What happened next is disputed. Conza, who was
approximately seven feet behind Bartelt,43 stopped his
car and jumped out. He saw Bartelt pointing his gun
at a “male standing with one ar[m] up.”44 Conza was
interrupted at this point when giving a subsequent
38 PA292. When asked to explain why he had turned the camera
off, Bartelt merely stated: “[t]here’s no requirement to have the
camera on.” Id. Yet, he conceded that it is required “during
generic pedestrian contacts,” PA290, and when pressed during
his deposition whether one could describe his encounter with
Gibbons, who was on foot, in such terms, Bartelt eventually
admitted, “I guess you can call it that.” PA291.
39 PA300.
40 PA295-96.
41 PA297-98.
42 PA298.
43 A182.
44 A266.

App.52a
report of the incident.45 When he resumed, he became
more vague, saying that even though “[i]t was still
light” out,46 he could only see one side of the suspect’s
body from his angle: “there is nothing on his right side,
there is no gun, nothing that I see on his right side.”47
He stated that Bartelt yelled something “inarticulateable.”48 “I don’t know if he’s responding to me or
Willie[.]”49 Without waiting for a response, Bartelt
opened fire. Conza stated: “I observed the recoil in
Officer Bartelt’s [sic] at that point.”50
Bartelt recalled the situation differently. According
to him, it was dark. “There might’ve been a few house
lights on here and there.”51 As he got out of his car,
Bartelt saw that Gibbons was holding a gun in his left
hand, “pointed towards his temple on his left side.”52
Bartelt immediately drew his own gun.53 His first
instinct was to open fire, but he noticed that Gibbons
was standing in front of a house, “which is why I
initially did not shoot right away.”54 But once he
45 Id.
46 A182. Korejko agreed that it was still light out at the time of
the shooting. A86.
47 A181.
48 Id.
49 Id.
50 Id.
51 PA72.
52 Id.
53 PA73.
54 PA75.

App.53a
realized that there were no lights on in the house, he
felt comfortable using his weapon. He yelled “drop it,
drop it,”55 and within a couple of seconds, while
Gibbons “still had the gun to his head and he was just
standing there facing me, looking right at me,” Bartelt
fired twice.56 Gibbons collapsed, and Bartelt later
said he knew Gibons, “wasn’t gonna move to get that
gun again.”57
A third version of events emerges from the deposition of the sole eye witness, who lived in a nearby
house. When Joanne Leyman heard gunshots, she
rushed to her window.58 Outside, she saw a single
officer and a single police car.59 According to Leyman,
Bartelt was there alone; Conza did not arrive until
after the shooting had already occurred.60 She reports
that Bartelt walked up to Gibbons after shooting him
and said “Willie, can you hear me?”61
What is undisputed is that the entire incident from
police first seeing Gibbons to Bartelt fatally shooting
him was over in “[s]econds.”62 By the time Hider swung
55 PA74.
56 PA75.
57 PA79.
58 PA345.
59 PA347-48.
60 PA348.
61 Id.
62 A164. Only 74 seconds elapsed between Hider’s initial report
that he had observed a potential suspect and the call for an
ambulance, which did not occur until after Bartelt had already
shot Gibbons. A101, PA375. In those 74 seconds, Bartelt had to

App.54a
back around and arrived at the scene, Gibbons was
lying on the ground.63 Shortly after midnight, Willie
Gibbons was pronounced dead.64
It is impossible to effectively evaluate the credibility of these three differing accounts of the incident
on the “dry record” before us.65 Given these divergent
stories, the District Court correctly concluded, “genuine
issues of disputed fact prevent the Court from holding
that Trooper Bartelt was reasonable in his belief that
Gibbons posed a danger to him or someone else . . . ”66
II.

The Opinion Disregards Our Decision in Bennett

As the Opinion rightly notes, “[q]ualified immunity’s second prong ‘shields officials from civil liability
so long as their conduct does not violate clearly established statutory or constitutional rights of which a reasonable person would have known.’”67 For a right to
drive to the location Hider had identified, speak with Gibbons,
close the distance between them, emerge from his car, and finally
open fire. After which, Conza, Hider, and Korejko all had to
arrive and handcuff Gibbons; finally, Conza called for medical
assistance. PA375. We can thus surmise that the actual
confrontation must have been exceedingly brief.
63 PA111.
64 A270.
65 United States v. Friedland, 83 F.3d 1531, 1546 (3d Cir. 1996)
(“[O]ur review of a dry record, of necessity, cannot be as comprehensive as the review of the judge who watched and heard the
issues being played out.”) (Rosenn, J., concurring and dissenting).
66 Gibbons v. New Jersey State Police, CV 13-3530, 2017 WL
11504779, at *8 (D.N.J. Dec. 20, 2017).
67 James v. New Jersey State Police, 957 F.3d 165, 169 (3d Cir.

App.55a
be clearly established, it “means that, at the time of
the officer’s conduct, the law was sufficiently clear
that every reasonable official would understand that
what he is doing is unlawful.”68 Instead of demanding
the impossible—an exact repetition of two situations
with different actors separated by time and place—
this “clearly established” prong asks a legal question
focused on notice: would a reasonable officer objectively
understand that his or her action was unconstitutional?69 “[E]xisting precedent must have placed the statutory or constitutional question beyond debate.”70
Such is the case here.
A. Bennett clearly establishes the law here
Admittedly, these two situations are not completely
the same. If the law allowed us to disregard Bennett
because the circumstances surrounding Gibbons’ killing
were not absolutely identical to those surrounding
Bennett’s, I would accept the denial of rehearing en
banc. However, total congruence of two different
incidents has never been required, nor could it be.71
Such a rule would institute absolute, not qualified,
immunity.
2020) (quoting Mullenix v. Luna , 136 S. Ct. 305, 308 (2015)
(internal quotation marks omitted)).
68 Id. (quoting District of Columbia v. Wesby, 138 S. Ct. 577, 589
(2018) (internal quotation marks and citation omitted)).
69 Id.
70 Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011).
71 Given the limitless randomness created by the vagaries of life,
no two incidents will ever be the exact reflection of one another.
See also id. (“We do not require a case directly on point”).

App.56a
Instead, the Supreme Court has instructed that
the precise “action in question” need not have “previously been held unlawful.”72 And we have reiterated
this standard: “although earlier cases involving fundamentally similar facts can provide especially strong
support for a conclusion that the law is clearly established, they are not necessary to such a finding.”73
Simply put, the law “do[es] not require a case directly
on point . . . ” with no variation whatsoever.74 What it
does demand is that the unconstitutional nature of the
present conduct “follow immediately” from the prior
case’s holding.75

Bennett readily satisfies that requirement. As
I’ve noted, we held there that if the victim “did not
pose a threat to anyone but himself . . . deadly force,
was objectively excessive.”76 Viewed at summary judgment in a light favorable to the non-movant, Gibbons
posed a threat to no one but himself. It thus “follow[s]
immediately” that Bartelt’s use of deadly force violated
clearly established law.

72 Wilson v. Layne, 526 U.S. 603, 615 (1999) (internal quotation
marks and citation omitted).
73 Mirabella v. Villard, 853 F.3d 641, 648 (3d Cir. 2017) (quotation omitted); see also Hope v. Pelzer, 536 U.S. 730, 741 (2002)
(“The same is true of cases with ‘materially similar’ facts.”). And
even if this were not so and a case with materially, or even fundamentally, similar facts were required, Bennett is certainly
“fundamentally” similar.
74 Ashcroft, 563 U.S. at 741 (Scalia, J.).
75 Mullenix, 136 S. Ct. at 309 (quoting Anderson v. Creighton,
483 U.S. 635, 641 (1987)).
76 Bennett v. Murphy, 274 F.3d 133, 136 (3d Cir. 2002).

App.57a
B. Applying Bennett to James
In Bennett, based on the view of the facts set forth
in Part I.A above, Officer Murphy was not shielded by
qualified immunity. As recounted above, we held: “[i]f,
as the plaintiff’s evidence suggested, David Bennett
had stopped advancing and did not pose a threat to
anyone but himself, the force used against him, i.e.
deadly force, was objectively excessive.”77 We reached
that conclusion even though Bennett was armed with
a shotgun, he was visibly agitated, and he had advanced
threateningly on the officers. Nevertheless, based
upon the facts—viewed in the light most favorable to
the plaintiff—we determined that, as a matter of law,
an individual who is manifesting only self-harm
cannot be a sufficient threat to warrant deadly force.
It is axiomatic that qualified immunity does not
protect officers “who knowingly violate the law.”78
After Bennett, any officer who used deadly force against
an individual who “did not pose a threat to anyone but
himself” knowingly violated the law of this Circuit and
could appropriately be held accountable for that violation.
Obviously, Bennett does not apply if an individual
threatening self-harm also poses a risk to others.79
77 Id. (emphasis added).
78 White v. Pauly, 137 S. Ct. 548, 551 (2017) (citation omitted).
79 This principle was well-established by the time of our decision
in Bennett. In Rhodes, the Sixth Circuit offered qualified
immunity to an officer who shot and killed a man advancing with
a machete. Rhodes v. McDannel, 945 F.2d 117, 118 (6th Cir.
1991) (per curiam). Similarly, in Sigman, the Fourth Circuit
awarded qualified immunity where a suicidal man was shot after
rushing a crowd of police officers armed with a kitchen knife,

App.58a
Just as the circumstances in Bennett (construed in the
plaintiff’s favor) compelled the conclusion that a reasonable officer could not have believed that David
Bennett posed a threat to anyone but himself, the circumstances here, viewed in a light favorable to
Gibbons, compel the conclusion that Willie Gibbons
only posed a threat to himself. When asked whether
Gibbons had threatened him “in any way,” Bartelt
responded unequivocally: “No.”80 Thus, when he opened
fire, Bartelt violated clearly established law.
C. Reviewing the disputed facts in the record
A wrinkle in its analysis prevented the Opinion
from readily arriving at that obvious conclusion. Our
jurisdiction on interlocutory appeal extends “only ‘to
the extent that it turns on an issue of law.’”81 This
means we only “possess jurisdiction to review whether
the set of facts identified by the district court is suffi-

shouting “I want to die.” Sigman v. Town of Chapel Hill, 161 F.3d
782, 785 (4th Cir. 1998). In Montoute, the Eleventh Circuit
granted qualified immunity to an officer who shot a man who was
running away and had only ever pointed his gun into the air
because the man had fired a warning shot near a large crowd and
posed a risk to that public gathering. Montoute v. Carr, 114 F.3d
181, 182–83 (11th Cir. 1997). We distinguished these situations
from non-threatening suicidal ones in a later iteration of
Bennett. Bennett ex rel. Est. of Bennett v. Murphy, 120 Fed.
Appx. 914, 919 (3d Cir. 2005).
80 A160. Defendants concede that Gibbons did nothing Bartelt
could have considered a threat other than holding a gun to his
own head. A268.
81 Davenport v. Borough of Homestead, 870 F.3d 273, 278 (3d
Cir. 2017) (quoting Mitchell v. Forsyth, 472 U.S. 511, 530 (1985)).

App.59a
cient to establish a violation of a clearly established constitutional right[.]”82 When the District Court identifies
a set of facts, that legal analysis can readily proceed.
But when it fails to do so, we must “undertake a
cumbersome review of the record to determine what
facts the district court, in the light most favorable to
the nonmoving party, likely assumed.”83 We have
established a supervisory rule that requires “at minimum, an identification of relevant factual issues and
an analysis of the law that justifies the ruling with
respect to those issues.”84 We very recently reiterated
this rule’s significance, as “we are hard pressed to
carry out our assigned function when district courts
fail to specify the set of facts they assumed.”85 As we
have repeatedly stressed, failure to follow the rule is
grounds for remand.86
Here, the District Court concluded that “genuine
issues of disputed fact prevent[ed]” it from awarding
qualified immunity.87 However, as the Opinion points
out, the District Court “did not identify these disputed
82 Dougherty v. Sch. Dist. of Phila., 772 F.3d 979, 986 (3d Cir.
2014) (quoting Ziccardi v. City of Phila., 288 F.3d 57, 61 (3d Cir.
2002)).
83 Johnson v. Jones, 515 U.S. 304, 319 (1995).
84 Forbes v. Twp. of Lower Merion, 313 F.3d 144, 149 (3d Cir. 2002)
(Alito, J.).
85 Williams v. City of York, 18-3682, 2020 WL 4249437, at *4 (3d
Cir. July 24, 2020) (Hardiman, J.) (quotation omitted).
86 Blaylock v. City of Philadelphia, 504 F.3d 405, 410 (3d Cir.
2007) (collecting instances of remand for failure to follow the
Forbes rule).
87 Gibbons, 2017 WL 11504779, at *8.

App.60a
facts.”88 That may well be because it believed that the
factual disputes on this record were obvious and did
not require elaboration. Nonetheless, this violates our
supervisory rule. Thus, remand (not reversal) is required for the District Court to address that deficiency in
the first instance.89
In choosing to instead undertake a “cumbersome
review” of the record on its own, the Opinion ignores
both the District Court’s finding that there were
material disputed facts and the Supreme Court’s instruction to “determine what facts the district court,
in the light most favorable to the nonmoving party,
likely assumed.”90 The Opinion professes to accept the
88 James, 957 F.3d at 168.
89 The Opinion identifies the District Court’s failure and “reiterate[s] that Forbes’s supervisory rule remains in effect.” 957 F.3d
at 169 n.4. But it provides no explanation for its own failure to
remand in accordance with the rule, other than a bare cite to a
concurring opinion which proposed to exempt from Forbes
“narrow legal claims that are capable of resolution without the
need to closely examine the nuances of the District Court’s factfinding.” E. D. v. Sharkey, 928 F.3d 299, 310 (3d Cir. 2019) (Smith,
C.J., concurring). However, the complex disputes here do not fit
within that exception. See, e.g., A182 (Conza says, “I don’t
remember it being dark. It was still light”), A86 (Korejko agrees),
PA72 (Bartelt claims “[i]t was dark”), A181 (Conza says Bartelt’s
shouting was “inarticulate-able”), PA74 (Bartelt claims he issued
clear commands). Another rare exception to the Forbes rule occurs
when disputed evidence is “blatantly contradicted by the record.”
Blaylock, 504 F.3d at 413 (quoting Scott v. Harris, 550 U.S. 372,
380 (2007)). We have no such evidence here, in part because
Bartelt purposefully deactivated his video camera. PA292.
90 Johnson, 515 U.S. at 319. This comports with our general rule
requiring de novo review of the entire record when reversing a
denial of summary judgment. Est. of Arrington v. Michael, 738
F.3d 599, 604 (3d Cir. 2013); see also United States v. Diebold,

App.61a
“conclusion that ‘genuine issues of disputed fact’
exist[],”91 but when it actually “proceed[s] to qualified
immunity’s second prong,”92 that awareness falls away.
Determining the purely legal question of whether
the law was clearly established “from the perspective
of a reasonable officer,”93 does not absolve us from
viewing the underlying material facts in a light
favorable to Gibbons. Without a clear conception of
what happened, we cannot answer the legal question
of whether clearly established law applies to the given
circumstances. In forming its view of these events,
without the benefit of the District Court elucidating
the disputed facts, the Opinion was bound to examine
the record itself and to view the disputed facts—which
were not obscure, Appellees’ brief repeatedly highlighted
several of them94—in a light favorable to Gibbons.

Inc., 369 U.S. 654, 655 (1962) (per curiam) (examining de novo
and reversing a grant of summary judgment because the
underlying record did not accord with the District Court’s finding
of fact).
91 James, 957 F.3d at 168.
92 Id. at 168-69.
93 Id. at 169 (citing White v. Pauly, 137 S. Ct. 548, 550 (2017)).
94 Appellees’ Br. at 8 (noting that Conza’s version of events
“differs from the account provided by Bartelt”), 21 (citing where
the record “directly contradict[s]” the officers’ testimony). The
Plaintiffs’ dispute many more facts in the record. See A235
(disputing whether Bartelt ordered Gibbons to drop his gun,
whether Gibbons understood and refused, whether Bartelt
considered Gibbons a threat, whether Bartelt was afraid, and
whether the other officers arrived on the scene in time to witness
the incident).

App.62a
Moreover, more than once, this Court has advised
that “a court ruling on summary judgment in a deadlyforce case” must be careful “to ‘ensure that the officer
is not taking advantage of the fact that the witness
most likely to contradict his story—the person shot
dead—is unable to testify.’”95 The Supreme Court has
likewise emphasized “the importance of drawing inferences in favor of the nonmovant, even when, as here,
a court decides only the clearly-established prong of
the standard.”96
Instead, the Opinion improperly resolves multiple
disputed issues of material fact in Bartelt’s favor when
determining if clearly established law applies.97 For
example: whether Gibbons’ right arm was raised in
surrender or at his side (ignored by the Opinion),
whether it was light or dark when Bartelt shot
Gibbons (ignored), whether Bartelt told Gibbons to
drop his gun or spoke unintelligibly (Opinion
95 Lamont v. New Jersey, 637 F.3d 177, 181-82 (3d Cir. 2011)
(quoting Abraham v. Raso, 183 F.3d 279, 294 (3d Cir. 1999)).
96 Tolan v. Cotton, 572 U.S. 650, 657 (2014).
97 City of Escondido v. Emmons, 139 S. Ct. 500, 501 (2019)
(viewing the record “in the light most favorable to the plaintiff.”).
This is an especially serious flaw when, as here, we have only one
side of the story. See Lamont, 637 F.3d at 181-82 (describing the
cautious, skeptical approach such circumstances necessitate). A
“court may not simply accept what may be a selfserving [sic]
account by the officer. It must also look at the circumstantial evidence that, if believed, would tend to discredit the police officer’s
story, and consider whether this evidence could convince a
rational fact finder that the officer acted unreasonably.”
Abraham v. Raso, 183 F.3d 279, 294 (3d Cir. 1999) (quotation
omitted). Yet even without the benefit of Gibbons’ testimony, the
two officers’ own versions of events are inconsistent.

App.63a
repeatedly assumes Bartelt gave the order98), whether
Bartelt even gave Gibbons a chance to comply with
any command he may have given or opened fire immediately after issuing such command (Opinion
repeatedly assumes Gibbons chose not to comply99),
and most importantly, whether Gibbons threatened
Bartelt in any way (ignored).100 The Opinion implicitly
or explicitly resolves each of these inferences against
Gibbons when determining whether clearly established law governs this case.

98 See, e.g., James, 957 F.3d at 166 (“Willie Gibbons, a suspect
who refused to drop his gun when Trooper Bartelt ordered him
to do so”), 168 (“Trooper Bartelt . . . twice told Gibbons to drop
his weapon . . . ”), 171 (“Gibbons ignored Trooper Bartelt’s orders
to drop his gun . . . ”), 172 (“Gibbons ignored Trooper Bartelt’s
orders to drop his gun . . . ”).
99 James, 957 F.3d at 168 (“Gibbons did not comply with the
commands”), 172 (referring to “noncompliant Gibbons.”).
100 A reasonable jury reaching the merits could readily find each
of those facts in favor of Plaintiffs on this record. A jury could
also consider the fact that Gibbons had filed a complaint against
police officers for harassing him earlier the same day, and
repeatedly pleaded for Bartelt to “stay away from me.” PA29596. Of course, we cannot know exactly what actually happened
the night Gibbons was shot. And I in no way suggest that the
prior complaint for police harassment instilled some degree of
callousness or hostility towards Gibbons. Yet, we have no way of
predicting how a jury would interpret Bartelt’s admission that
he turned his video camera off en route to meet Gibbons even
though that would have been the kind of pedestrian encounter that
required him to have it on. We certainly cannot prognosticate
how a jury may factor that complaint into its deliberations.
Jurors are, after all, free to consider any evidence that they deem
relevant. That is another reason why a grant of summary judgment at this stage is so very wrong.

App.64a
But it does not stop there: Bartelt never stated
that Gibbons threatened him or anyone other than
himself.101 In fact, Bartelt admits Gibbons made no
threat.102 Here, there is no factual dispute. So the
Opinion simply invents one and then resolves it in
favor of Bartelt.103 That is not merely wrong, it is
indefensible.
If we instead properly view each of the uncertainties in Gibbons’ favor, a jury could readily conclude that
a reasonable officer would have recognized the impermissibility of unleashing deadly force upon an individual who had displayed no sign whatsoever that he
intended to harm anyone but himself. That places this
case squarely within Bennett’s ambit, and the holding
there clearly established the law in this situation.

101 Defendants have conceded as much, admitting that Gibbons
made no threats against Bartelt or anyone else. A268.
102 A160. The Opinion simply ignores the fact that there is no
factual dispute whether Gibbons was threatening anyone but
himself. While Bartelt later claimed to have been subjectively
afraid, A170, he first admitted that Gibbons made no objective
threat. A160. Bartelt’s “subjective beliefs . . . are irrelevant,” as
we must conduct this analysis solely from the perspective of an
objective officer. Anderson, 483 U.S. at 641. It is thus impossible
to conclude that the Opinion is consistent with our scope of review
at summary judgment because that crucial fact of the threat
posed is actually undisputed. That should have been enough to
affirm the District Court’s denial of summary judgment by itself.
Given the clear legal pronouncement of Bennett, this may be why
the District Court did not think it necessary to recite the factual
disputes before denying qualified immunity (an omission which
nonetheless violated our Forbes supervisory rule).
103 James, 957 F.3d at 172 (“Trooper Bartelt . . . could reasonably
conclude that Gibbons posed a threat to others.”).

App.65a
D. The Opinion’s three distinctions between James
and Bennett
Faced with on-point precedent, the Opinion first
improperly views the facts here in a light favorable to
Bartelt, and then claims Bennett is distinguishable
based upon those skewed facts. This approach is
directly contrary to our scope of review on summary
judgment.104 Further, each purported distinction crumples under scrutiny.
1. Knowledge
The Opinion suggests that Bartelt knew more
about Gibbons than Officer Murphy knew about David
Bennett.105 It highlights three facts in particular: (1)
“Gibbons had violated a restraining order,” (2) “Gibbons
was reportedly mentally ill and may not have been
taking his medication,” and (3), “Gibbons was carrying
and earlier that evening had brandished a firearm.”106
It infers that a reasonable officer would “perceive that
Gibbons presented an increased risk of harm” as a
result.107
To begin with, it is hardly self-evident that knowing more about a suspect would lead an officer to
104 Tolan, 572 U.S. at 651 (remanding where “the Fifth Circuit
failed to adhere to the axiom that in ruling on a motion for summary judgment, ‘[t]he evidence of the nonmovant is to be
believed, and all justifiable inferences are to be drawn in his
favor.’”) (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
255 (1986)).
105 James, 957 F.3d at 172.
106 Id.
107 Id.

App.66a
perceive a greater threat. In fact, the exact same argument could be made in reverse. That is, Officer Murphy
could have perceived a greater threat from David
Bennett because he knew nothing of Bennett’s history
or motivation. For all Murphy knew, Bennett could
have had a history of violent and assaultive behavior
or a vendetta against the police. We are, after all, at the
summary judgment stage. Bartelt is free to convince a
jury that his knowledge of the decedent informed the
reasonableness of his actions. That is not for us to
determine. It is simply not relevant here and the
Opinion does not explain why it is. Rather, it merely
states that Bartelt knew three facts about Gibbons,
none of which materially distinguish Bennett.
First, there is no reason here to conclude that violating a restraining order would entitle an officer to use
lethal force. David Bennett presumably also violated
the law during the standoff with police (e.g., by resisting arrest). But that was not relevant to the threat he
posed to officers on the scene. Police frequently
respond to allegations that someone has violated the
law. Clearly, they are not thereby permitted to automatically resort to lethal force. Moreover, it is uncontested that Bartelt did not know the terms of the
restraining order that Gibbons had violated.108 Thus,
Bartelt’s knowledge that Gibbons had violated a
restraining order is irrelevant, and the Opinion does
not attempt to explain why it is relevant. Rather, it
simply states that this factor is different than the circumstances in Bennett. It may be, but that does not
meaningfully distinguish the two sets of circumstances.
108 PA288.

App.67a
Second, the Opinion does not explain the relevance
of knowing that Gibbons may not have taken his
medications and may have been mentally ill. Those
circumstances are simply offered as another ipse dixit
to establish a material distinction. To the extent that it
is a material consideration, it counsels against opening
fire on Gibbons rather than supporting that response.
Both the Ninth and Tenth Circuit Courts of Appeals
have found:
Even when an emotionally disturbed individual is acting out and inviting officers to use
deadly force, the governmental interest in
using such force is diminished by the fact
that the officers are confronted, not with a
person who has committed a serious crime
against others, but with a mentally ill individual.109
Here, of course, the mentally ill individual was not
“inviting officers to use deadly force.” Rather, Gibbons
was pleading to be given space and threatening only
himself as Bartelt drove his car towards him. Nonetheless, the Opinion appears to suggest these circumstances would have been different if Gibbons had either
not been mentally ill or had taken his medications.
That is as troubling as it is irrelevant and incorrect.
Further, it would have been apparent to the nearby
officers that David Bennett was also suffering from a
mental health crisis. Someone who is mentally stable
109 Glenn v. Washington County, 673 F.3d 864, 876 (9th Cir. 2011)
(internal quotation omitted); see also Bryan v. MacPherson, 630
F.3d 805, 829 (9th Cir. 2010) (“[I]f Officer MacPherson believed
[the plaintiff] was mentally disturbed he should have made
greater effort to take control of the situation through less
intrusive means.”).

App.68a
does not usually point a shotgun at his own head in
front of police. Thus, that is no basis to distinguish
this case. To be sure, if there were any factual basis to
conclude Gibbons’ illness played some part in the
confrontation, it would be a relevant factor. But on
this record, the fact that Gibbons may have been off
his medications counseled a compassionate response,
not unleashing deadly force. Concluding otherwise is
distasteful and, moreover, draws an unfair distinction
to Bennett, where the victim’s mental health status
was undiagnosed, unduly favoring Bartelt at summary
judgment.
Finally, the Opinion purports to distinguish Bennett based on the fact that “Gibbons was carrying and
earlier that evening had brandished a firearm.”110 Of
course, it is obvious that David Bennett was also
carrying a firearm, which he also brandished. This
attempted distinction is purely puzzling.
2. Control
The Opinion stresses that whereas Officer Murphy
was eighty yards from David Bennett, Bartelt was
approximately fifteen yards away from Gibbons. Of
course, that is because Bartelt drove his car toward
Gibbons and then stopped at that distance. Moreover,
distance is merely one of the factors the Supreme
Court has considered.111 The Opinion reasons that the
distance matters because in Bennett, Officer Murphy
could “rely on closer officers to give commands . . . and
110 James, 957 F.3d at 172.
111 Kisela v. Hughes, 138 S. Ct. 1148, 1154 (2018). The discussion
at nn. 122-23 below, distinguishing Kisela’s rationale for weighing
such factors, applies with equal force here as well.

App.69a
evaluate his compliance.”112 Here, “Trooper Bartelt
was the closest officer to Gibbons.”113 Yet this, too,
could be argued in reverse. An officer who fired from
a distance could perhaps be given greater latitude
because s/he could more easily mistakenly conclude
the victim’s weapon was pointed at someone other than
the victim, or not even be sufficiently sure of where
the victim was pointing it to confidently refrain from
shooting. Again, the Opinion simply states a difference
without explaining why it is a material distinction.
The Opinion also characterizes Gibbons as uncooperative, noting that David Bennett was “comparatively
compliant” by contrast.114 This is just plain wrong
given our standard of review. The Opinion describes
Gibbons as “a suspect who refused to drop his gun when
Bartelt ordered him to do so.”115 There is a dispute
about what Bartelt said as well as whether whatever
he said was audible or intelligible to Gibbons.116 The
District Court failed to specify whether that was one
of the disputed facts it “assumed.”117 Even assuming
arguendo that Gibbons did hear a command to drop
112 James, 957 F.3d at 172.
113 Id. (emphasis in original).
114 Id.
115 Id. at 166, 168, 171, 172 (repeatedly discussing Gibbons’ purported failure to drop his weapon on command).
116 Conza was approximately seven feet behind Bartelt, less than
half the distance between Bartelt and Gibbons. A182. Conza did
not hear Bartelt order Gibbons to drop the gun. He says Bartelt
was “screaming” and that the words were “inarticulate-able
[sic].” A180-81.
117 Johnson, 515 U.S. at 319.

App.70a
the gun, it is not clear that Bartelt gave him time to
comply. Assuming even further that Gibbons had time
to comply, it remains undisputed that Gibbons never
pointed the gun anywhere but at his own head. Thus,
Bennett clearly established the governing law here.
The Opinion seeks to avoid that result by refusing to view the facts in a light favorable to Gibbons.
Bennett actually advanced towards officers while
armed, after engaging in an extended stand-off with
police.118 By contrast, Gibbons did not advance on
Bartelt. Rather, Bartelt advanced on him when Gibbons asked him to “stay away from me.”119 Describing
Bennett as compliant compared with Gibbons is
simply incorrect.
3. Chronology
The Opinion also attempts to distinguish Bartelt’s
killing of Gibbons from Officer Murphy’s killing of
Bennett because Bartelt had much less time to reflect
than Murphy had when he shot Bennett. This is
perhaps the weakest part of the Opinion’s attempt to
raise a distinction between the two cases. It is both
legally unpersuasive and relies on a terribly cruel irony.
Under this view, Bartelt had “mere seconds to assess
the potential danger”120 whereas the standoff in
Bennett lasted close to an hour. The Opinion notes
that the Supreme Court has “stressed the importance

118 Bennett, 127 F. Supp. 2d at 690–91.
119 PA295.
120 957 F.3d at 172 (quoting Kisela, 138 S. Ct. at 1153).

App.71a
of this kind of temporal difference when conducting
the clearly established inquiry” in Kisela v. Hughes.121
However, time was an important factor in Kisela
because the victim was threatening a bystander with
a large knife and that bystander was within reach of
the victim when police opened fire.122 Such an immediate threat to others is a prime example of a situation
where police must act reflexively. But as the Court of
Appeals for the Fifth Circuit concluded en banc last
year, the reason the Supreme Court stressed the
temporal difference in the face of that imminent threat
is inapplicable where, as here, there is no imminent
threat.123 As in Bennett, this victim was only threatening himself. In addition, the only reason there was
no hour-long standoff here (and the cruel irony of
relying on timing as a distinguishing factor) is that
Bartelt opened fire on Gibbons almost immediately
after confronting him. And he confessed that his
instinct was to shoot even sooner.124
Police cannot immediately open fire on someone
who poses no threat to others and then seek refuge in
qualified immunity by claiming there was no time to
121 Id.
122 138 S. Ct. at 1153 (“Hughes had moved to within a few feet
of [the bystander]; and she failed to acknowledge at least two
commands to drop the knife.”).
123 Cole v. Carson, 935 F.3d 444, 455 (5th Cir. 2019) (en banc),
as revised (Aug. 21, 2019) (concluding that the presence of the
bystander, “heightened the risk of immediate harm to another
. . . ”), cert. denied sub nom. Hunter v. Cole, 19-753, 2020 WL
3146695 (U.S. June 15, 2020).
124 PA75.

App.72a
assess the situation.125 The urgency here was of
Bartelt’s own making.126 Had he withheld fire this
situation may well have also developed into the kind
of standoff that is ostensibly so material to our holding
in Bennett. The irony is exacerbated by Bartelt’s
taped
post-shooting
incident
report,
which,
inexplicably, the Opinion totally ignores.
There, Bartelt stated that the scene was dark,
“[t]here might’ve been a few house lights on here and
there.”127 As he left his car, Bartelt said he perceived
that Gibbons was holding a gun in his left hand,
“pointed towards his temple on his left side.”128 Bartelt
immediately drew his gun.129 According to Bartelt’s
own account, his first instinct was to open fire, but he
noticed that Gibbons was standing in front of a
residential house, “which is why I initially did not
shoot right away.”130 He said that he only fired once
he realized that there were no lights on in the house
and no car in the driveway because he then felt
125 Such an argument is akin to the “legal definition of chutzpah,”
a defendant who kills his/her parents and then pleads for mercy
as an orphan. Harbor Ins. Co. v. Schnabel Found. Co., Inc., 946
F.2d 930, 937 n.5 (D.C. Cir. 1991).
126 The Kisela dissent made a similar observation. 138 S. Ct. at
1160 (Sotomayor, J., dissenting). But there, unlike here, the
police felt they had to act rapidly to protect a vulnerable
bystander who appeared to be in imminent danger from a knifewielding assailant. Id. at 1153.
127 PA72.
128 Id.
129 PA73.
130 PA75.

App.73a
comfortable using his weapon. Gibbons “still had the
gun to his head and he was just standing there facing
me, looking right at me,” when Bartelt shot him
twice.131
Thus, according to Bartelt’s own report, he had
time to realize that there was a nearby house and
someone might be injured if he fired his gun, then look
more closely and process the fact that there were no
lights on in the house, no car in the driveway and
conclude no one was home, before opening fire on
Gibbons. According to Bartelt’s own description of the
incident, this was not an immediate reflexive action to
defend himself from Gibbons or to prevent Gibbons
from harming fellow officers or anyone else. Rather,
according to Bartelt, he opened fire after processing
all of the above and seeing that Gibbons held a gun
“pointed towards his temple on his left side.”132 Only
then, despite conceding that Gibbons had not
threatened him, 133 did Bartelt act on his initial
impulse, which was to fatally open fire.
This is a far cry from the numerous situations
where officers feel instinctively compelled to use deadly
force to prevent someone from harming an officer or
bystander, thereby justifying the protective umbrella
of qualified immunity. In such urgent situations,
qualified immunity is appropriate even if the officer’s
instant perception of the situation was inaccurate.
Officer Bartelt’s own undisputed account—if accepted
by a fact finder—establishes that he did not act as
131 Id.
132 PA72.
133 A160.

App.74a
instantly or instinctively as the Opinion attempts to
suggest.134
Thus, to the extent the Opinion seizes upon
urgency as one of the factors that distinguish this case
from Bennett, it is just wrong. According to Bartelt’s
own testimony, the specter of urgency painted by the
Opinion simply did not exist given our standard of
review here. Moreover, to the extent an interpretation
of the facts suggests that an urgency did exist, it was
a circumstance of Bartelt’s own making. There was no
accompanying justification of imminent harm, which
was the crucial foundation of the Court’s reasoning in
Kisela. The Opinion’s three-part attempt to differentiate
the facts here from those in Bennett is as inaccurate
as it is unpersuasive.
E. Misplaced reliance on other precedent
Finally, the Opinion is misguided to the extent that
it suggests our decision in Lamont v. New Jersey supports its reasoning. 135 There, police chased a
suspect through woods at night. When they finally

134 Reasonable jurors could also conclude that this testimony—
suggesting that Bartelt carefully surveyed the area, observed a
house, but inferred no one was home before firing—was selfserving testimony offered to establish that he exercised reasonable care before shooting. That is true even though it tends to
undermine his immunity claim because it shows that there was
more opportunity for observation and deliberation than Bartelt’s
rapid fire suggests. Thus, reasonable jurors might well conclude
that this testimony negates Bartelt’s entitlement to qualified
immunity, just as the District Court held.
135 637 F.3d 177 (3d Cir. 2011).

App.75a
cornered him, he yanked something out of his waistband and police opened fire, believing it was a gun.136
The Lamont Court held that response was reasonable.137 The Opinion here concludes that the confrontation with Gibbons was therefore justified because although the suspect in Lamont ultimately did not have
a gun (although officers reasonably believed that he
did), Gibbons actually did have a gun. Simply put,
that non sequitur defies logic.
The fact that the suspect in Lamont was perceived
to pose a threat to others without a gun says nothing
about whether Gibbons posed a threat to others with
one. In fact, unlike the Lamont suspect, who fled
through the dark woods and suddenly pulled something
from his waistband in response to an order not to move,
Gibbons made no sudden moves. He was pointing the
gun only at himself, not at the officers, and had been
walking down the street, not fleeing from arrest or
resisting in any way. In Lamont, unlike here, the
police unquestionably had justification to fire. The
Opinion’s reliance on Lamont is unhelpful.
The Opinion also quotes our statement in Lamont
that “[p]olice officers do not enter into a suicide pact
when they take an oath to uphold the Constitution.”138
No rational person could disagree. However, neither
do police thereby obtain a license to unreasonably use
force, let alone deadly force. This is even a basic tenet
of official New Jersey State Police policy. That Policy
forbids shooting someone (such as Gibbons) who is
136 Id. at 183.
137 Id.
138 James, 957 F.3d at 173 n.6 (quoting Lamont, 637 F.3d at 183).

App.76a
threatening only himself. The Policy states: “Deadly
force shall not be used against persons whose conduct
is injurious only to themselves.”139 As I have
reiterated, we are among those courts that hold it is
unreasonable to shoot someone who only threatens
harm to him/herself. Invoking the concept of a “suicide
pact” to justify deadly force and qualified immunity
here may add a rhetorical flourish to the Opinion, but
it is seriously misplaced and misleading given the
record before us.
Finally, despite the fact that the use of deadly
force in Lamont was justified, it should be remembered
that we nevertheless ultimately did not grant qualified
immunity in that case. We declined to do so because it
was disputed whether officers continued firing after
the decedent no longer reasonably posed a threat.140
III. The Opinion Ignores Supreme Court Precedent
The Opinion’s reliance upon disputed facts also
contravenes on-point Supreme Court precedent for
qualified immunity cases on review from denial of
summary judgment. The Opinion looks to what it
terms, “[t]he closest factually analogous Supreme Court
precedent, Kisela v. Hughes.”141 As I have already
explained, Kisela is distinguishable since the police
there needed to act quickly because Amy Hughes was
holding a large knife within reach of an innocent
bystander. By contrast, Willie Gibbons did not threaten
139 PA428.
140 637 F.3d at 185 (“[T]he dispute in this case is about the facts,
not the law. The doctrine of qualified immunity is therefore
inapposite.”).
141 James, 957 F.3d at 170.

App.77a
anyone but himself and Bartelt has never said that he
did.142 Because the Opinion erroneously views the
facts in a light favorable to Bartelt, the “closest factually analogous Supreme Court precedent” is not
Kisela, but Tolan v. Cotton,143 which the Opinion fails
to even mention as part of its summary judgment
analysis. Tolan, like Kisela, was decided after Bartelt
shot Gibbons and therefore could not have informed
Bartelt about the reasonableness of his actions.
Nevertheless, it is directly relevant to the legal analysis here insofar as it instructs how factual disputes
must be analyzed under the clearly established prong
of a qualified immunity inquiry.
In Tolan, as here, the parties disputed several
aspects of a police confrontation resulting in a fatal
shooting. Like here, the disputed facts included whether
there was enough light to see clearly.144 The Court of
Appeals for the Fifth Circuit granted qualified immunity on the grounds that it was possible for an officer
to have “reasonably and objectively believed that [the

142 A160 (conceding that Gibbons never issued any sort of threat).
143 572 U.S. at 657 (“In holding that [the victim’s] actions did
not violate clearly established law, the Fifth Circuit failed to view
the evidence at summary judgment in the light most favorable to
[the officer] with respect to the central facts of this case. By
failing to credit evidence that contradicted some of its key factual
conclusions, the court improperly ‘weigh[ed] the evidence’ and
resolved disputed issues in favor of the moving party[.]”) (quoting
Anderson, 477 U.S. at 249).
144 Id. at 657–58 (contrasting the officer’s testimony that the
area “was fairly dark” with the victim’s attestation that “he was
not in darkness.”) (internal quotation marks and citations
omitted).

App.78a
victim] posed an immediate, significant threat of substantial injury to him.”145 The Supreme Court reversed
because, “the court below credited the evidence of the
party seeking summary judgment and failed properly
to acknowledge key evidence offered by the party
opposing that motion.”146 That is precisely what our
Opinion does here, despite the Supreme Court unanimously rejecting such an approach.147
The Fifth Circuit’s careful en banc decision in Cole
v. Carson148 amplifies the relevance of Tolan. There,
officers pursued a suicidal young man, Ryan Cole, and
fatally shot him while he pressed a gun to his own
head.149 As here, it was disputed whether the officers
warned the victim before opening fire, and, if so,
whether they gave him an opportunity to comply.150
The circumstances are not identical; Ryan Cole
survived and his suit subsequently alleged that the
officers conspired to lie about the threat he posed in

145 Id. at 655 (quoting Tolan v. Cotton, 538 Fed. Appx. 374, 377
(5th Cir. 2013)).
146 Id. at 659.
147 See id. at 662 (Alito, J., concurring in the judgment) (“I agree
that there are genuine issues of material fact and that this is a
case in which summary judgment should not have been
granted.”).
148 935 F.3d 444 (5th Cir. 2019) (en banc).
149 Id. at 448–49.
150 Id. at 455 (“[A] reasonable jury could find that [the victim]
made no threatening or provocative gesture to the officers and
posed no immediate threat to them. . . . [It] could find [the
officers] opened fire upon [the victim] without warning.”).

App.79a
order to justify having shot him.151 A panel of the
Fifth Circuit initially denied qualified immunity, but
the Supreme Court summarily reversed and remanded
for reconsideration llenix v. Luna.152 On remand, the
panel reaffirmed its earlier decision, and the Fifth
Circuit granted rehearing before the full court. The en
banc court explicitly followed Tolan’s requirement
that disputed facts be viewed in the non-movant’s
favor,153 and found from that perspective:
Ryan was holding his handgun pointed to his
own head, where it remained. [He] never
pointed a weapon at the Officers, and never
made a threatening or provocative gesture
towards [the] Officers. [The officers] had the
time and opportunity to give a warning for
Ryan to disarm himself. However, the officers
provided no warning . . . that granted Ryan
a sufficient time to respond, such that Ryan
was not given an opportunity to disarm himself before he was shot.154
Viewed in that light, the en banc court affirmed
the denial of qualified immunity. The court explained:
“[w]e conclude that it will be for a jury, and not judges,
to resolve the competing factual narratives as detailed
in . . . the record as to the [plaintiffs’] excessive-force

151 Id. at 448-50.
152 Id. at 447; Hunter v. Cole, 137 S. Ct. 497 (2016) (vacating
and remanding for reconsideration).
153 935 F.3d at 456 n.72 (citing Tolan, 572 U.S. at 660).
154 Id. at 449 (quotations omitted).

App.80a
claim.”155 While Gibbons’ death leaves us reliant on
the officers’ recounting of events, there are many
similarities between Cole and James. In both cases,
Tolan requires that the facts be viewed in the nonmovant’s favor. As noted before, the Opinion entirely
ignores Tolan; it also ignores Cole. Under Tolan, we
must view the facts in Gibbons’ favor; when we do so,
Bennett clearly governs this case.
IV. Bennett is Not an Outlier
I realize that, given the controlling precedent of
Bennett, precedents from other Circuits are not relevant
to our qualified immunity analysis. Nevertheless, before
concluding, I think it helpful to note that every Circuit
Court of Appeals that has addressed this issue in a
precedential opinion, and there are ten of them,156 has
held that it is a clear violation of the Constitution to
shoot someone who is only threatening self-harm.157
155 Id. at 447.
156 Every circuit except the Second and D.C. Circuits has issued
a precedential opinion on this subject. Cf. Chamberlain Est. of
Chamberlain v. City of White Plains, 960 F.3d 100, 103, 110–13
(2d Cir. 2020) (denying qualified immunity on excessive force and
other claims when police fatally shot a mentally ill but not
suicidal man in his own apartment after he begged them to leave
him alone).
157 Cole v. Carson, 935 F.3d 444 (5th Cir. 2019) (en banc) (denying
qualified immunity at summary judgment for officers who shot a
suicidal man as he held a gun to his own head because the facts
viewed in plaintiffs’ favor showed he was no threat to anyone but
himself), cert. denied sub nom. Hunter v. Cole, No. 19-753, 2020
WL 3146695 (U.S. June 15, 2020); Partridge v. City of Benton,
Arkansas, 929 F.3d 562, 567 (8th Cir. 2019) (declining to permit
qualified immunity for officers who shot a 17-year-old with a gun
pressed to his own head when he allegedly started moving it,

App.81a
This holds particular force and urgency when
police confront individuals suffering a mental health
crisis. The Court of Appeals for the First Circuit
finding “no reasonable officer could conclude [the victim] posed
an immediate threat of serious physical harm.”); McKenney v.
Mangino, 873 F.3d 75, 79 (1st Cir. 2017) (emphasizing that
“[n]one of the officers had warned [the suicidal individual] that
they would use deadly force if he refused to drop his weapon.”);
Weinmann v. McClone, 787 F.3d 444, 446–47 (7th Cir. 2015)
(affirming a denial of qualified immunity where an officer shot a
suicidal man who was holding a gun to his own head); Cooper v.
Sheehan, 735 F.3d 153, 159–60 (4th Cir. 2013) (rejecting a claim
to qualified immunity by officers who opened fire at a man who
was holding a gun but not aiming it at them); Glenn v.
Washington Cty., 673 F.3d 864, 873–74 (9th Cir. 2011) (declining
to award qualified immunity where officers gunned down a
suicidal young man who had a knife and had threatened to “kill
everybody” because the officers needlessly opened fire); Walker v.
City of Orem, 451 F.3d 1139, 1160 (10th Cir. 2006) (reversing a
grant of qualified immunity where police “acted precipitously in
shooting [a suicidal individual whom they believed to be holding
a gun], who posed a danger only to himself. . . . [the victim] did
not pose an immediate threat to the safety of the officers or
others. He had made no threats and was not advancing on
anyone . . . ”); Mercado v. City of Orlando, 407 F.3d 1152, 1157–
61 (11th Cir. 2005) (finding officers who found a man holding a
knife to his own chest, “should not be afforded the protection of
qualified immunity” when they fired within seconds and without
warning); Sova v. City of Mt. Pleasant, 142 F.3d 898, 903 (6th
Cir. 1998) (remanding a qualified immunity grant to two officers
who shot and killed a man who had stabbed himself with a knife
and who they believed had a gun, “[b]ecause the District Court
failed to view the evidence about how the shooting happened in
the plaintiffs’ favor and overlooked contentious factual disputes
concerning the officers’ actions . . . ”); Cf. Rogers v. King, 885
F.3d 1118, 1120, 1122 (8th Cir. 2018) (finding qualified immunity
proper where police officers encountered a suicidal woman with
a gun to her head and did not shoot her initially but then opened
fire once she started waiving the gun around and eventually
pointed it in the officers’ direction).

App.82a
observed, “federal courts have afforded a special
solicitude to suicidal individuals in lethal force cases
when those individuals have resisted police commands
to drop weapons but pose no real security risk to
anyone other than themselves.”158 Here, of course,
the Opinion points to Gibbons’ failure to drop his gun
even though it is not even certain that Gibbons
resisted a command to drop his weapon.
The Opinion dismisses several of these cases by
other Circuit Courts of Appeals as either too vague, or
too recent,159 to have formed a “robust consensus of
cases of persuasive authority in the Courts of
Appeals.”160 Even if the Opinion is correct that the
uniform conclusion already reached by several other
Circuit Courts of Appeals at the time Bartelt shot
Gibbons had failed to establish a clear right, it offers
no principled reason for departing from our own
binding precedent. As I have explained, the Opinion’s
efforts to explain why Bennett does not control either
rely upon differences that yield no distinction or are
just plain wrong in describing relevant “facts.”161
158 McKenney, 873 F.3d at 82.
159 James, 957 F.3d at 173.
160 Id. at 170 (citing Bland v. City of Newark, 900 F.3d 77, 84
(3d Cir. 2018)).
161 See, e.g. , the Opinion describing David Bennett as “comparatively compliant,” 957 F.3d at 172; incorrectly distinguishing
Bennett based on the purported difference that “Gibbons was
carrying and earlier that evening had brandished a firearm,” id.;
repeatedly adopting a view unduly favorable to Officer Bartelt
when it takes as true the disputed facts that Gibbons was
ordered to drop his weapon, was given time to respond, and failed
to comply. Id. at 166, 168, 171-72.

App.83a
V.

Conclusion

To summarize: Bennett controls this analysis and
failing to grant the Petition for Rehearing is a
serious mistake.162 There will always be differences
between two events featuring different participants,
separated by time and place. The Supreme Court has
never required a prior case that is absolutely identical
to the circumstances surrounding a plaintiff’s claim,
nor could it. No such case will ever exist and requiring
one tacitly transforms qualified immunity into absolute immunity.
What is required is notice. Controlling precedent
that is based upon circumstances sufficiently similar
(when analyzed at an appropriate level of generality)
to inform a reasonable officer that his/her conduct
violates clearly established law.163 Bennett is exactly
such a case. To reiterate once again our unqualified
pronouncement there, if the victim “did not pose a
threat to anyone but himself, the force used against
him, i.e. deadly force, was objectively excessive.”164
For the reasons I have explained, Bennett remains
the law of this Circuit even after the denial of this
Petition for Rehearing. However, institutionally, en
banc reconsideration of the Opinion is certainly
162 At minimum, we should comply with the Forbes supervisory
rule and remand the case to the District Court for it to spell out
the disputed material facts. Forbes, 313 F.3d at 149. That rule
exists so that we will not decide a weighty question such as this—
whether our precedent created clearly established law in a given
scenario—without clarity in the record as to the disputed facts.
163 See Kisela, 138 S. Ct at 1152 (cautioning against defining
“clearly established law at a high level of generality.”).
164 Bennett, 274 F.3d at 136.

App.84a
preferable to relying on the operation of I.O.P. 9.1 to
prevent an officer from subsequently attempting to
claim that our law on this issue is not clearly established. It is, and it will remain so after today.
While remaining appreciative and cognizant of
the risks that law enforcement officers face daily, we
must nevertheless take care not to transform the
shield of qualified immunity into a sword that licenses
unreasonable force. I therefore must respectfully dissent from my colleagues’ decision to deny the petition
for rehearing in this case. I do not reach that conclusion lightly. This is only the second time in 26 years
on our Court that I have thought it necessary to draft
an opinion dissenting from a denial of rehearing. But,
in Justice Frankfurter’s words: “justice must satisfy
the appearance of justice.”165 Given our controlling law
here, that appearance is sorely lacking if we grant
Trooper Bartelt immunity as a matter of law.

165 Offutt v. United States, 348 U.S. 11, 14 (1954).

App.85a
DEPOSITION OF JOANNE LEYMAN–
RELEVANT EXCERPTS
(FEBRUARY 23, 2016)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
________________________
IN RE: WILLIE GIBBONS; ARLANE JAMES,
J.R.G., A MINOR, BY HIS MOTHER AND LEGAL GUARDIAN,
IKEYA CRAWFORD; D.K.L., A MINOR, BY HIS MOTHER
AND LEGAL GUARDIAN, ANGEL STEPHENS; L.M.G.,
A MINOR, BY HER MOTHER AND LEGAL
GUARDIAN, ANGEL STEPHENS,

Plaintiffs,
v.
NEW JERSEY STATE POLICE; STATE OF NEW
JERSEY; SERGEANT JAMES MCGOWAN, STATE
TROOPER NOAH BARTELT; STATE TROOPER
PHILLIP CONZA, STATE TROOPER MICHAEL
KORIEJKO, STATE TROOPER DANIEL HIDDER
IN THEIR INDIVIDUAL AND OFFICIAL CAPACITIES,
JOHN DOES 1-10

Defendants.
________________________
No. 1:13-cv-03530

App.86a

[February 23, 2016, Transcript, p.8]
. . . correct?
A.

Right, right.

Q.

Now, if you look at this picture, could you tell us—
there was an incident that happened. Could you
just describe what time you actually heard a
commotion the day of May 25th?

MR. FREEMAN: Objection.
BY MS. STERLING:
Q.

You heard anything that was out of the norm on
May 25th, 2011?

A.

I would say it was around 9 or a little after 9 in
the evening.

Q.

And was it dark outside?

A.

Yes, it was.

Q.

What did you hear?

A.

I was sitting in my living room and I heard a pop,
pop, which. I thought was a tire that was blown.
Do you want me to continue?

Q.

Yes, um-hum.

A.

I got up and went in my bedroom and looked out
the window and I saw a trooper leaning over somebody. And all I could hear him say was, Willie, can
you hear me? Willie, can you hear me? And after
that, I went back in my living room and didn’t
look out there anymore.

Q.

And you said you saw a trooper leaning over
someone?

App.87a
A.

Yes.

Q.

Now, were the shots fired quickly after the other
or was it like one—

A.

It just went pop, pop. That’s it.

Q.

Twice. Did you hear any exchange of words before
that outside?

A.

No.

Q.

When you came outside you said you looked
through your window. When you looked through
your window, you saw an officer leaning over a
person?

A.

Right.

Q.

Did you get a chance to see that person at all?

A.

Just the body that was laying on the ground.

Q.

And do you know the race of the body—of the
person that was laying on the ground?

A.

No, I did not.

Q.

Did you see anything in the person’s hand that
was laying on the ground?

A.

No, I did not.

Q.

Did you see a gun or anything next to the person
that was laying on the ground?

A.

No, I did not.

Q.

And when you went to the window and you saw
him, that person, lying on the ground, was he
already on the ground when you got to the window?

A.

Yes.

App.88a
Q.

How quickly after you heard the pop, pop did you
go to the window?

A.

Maybe one, two minutes. I just got up and went
and looked.

Q.

How far is your living room from your window—
where you were sitting, rather, from the window?

A.

Maybe 25 feet, if that.

Q.

Did you go immediately?

A.

Yes.

Q.

And when you went to the window, you said—
how many officers did you see?

A.

One.

Q.

You saw just that one officer over him?

A.

Right.

Q.

You didn’t see any other officers around?

A.

No.

Q.

Did you see any other—did you see any cars,
police cars there?

A.

Just the one that was in the road.

Q.

Just one car was in the road?

A.

Yes.

Q.

And you said that the officer—and the officer that
shot him was—was there. So there was only one
officer and Willie was on the ground, and there
was one police car. And the officer was saying,
Willie, Willie—what was he saying to Willie?

A.

He was saying, Willie, can you hear me? Willie,
can you hear me?

App.89a
Q.

Did you hear Willie say anything to the officer?

A.

No, I did not.

Q.

And how long did you look outside?

A.

Oh, gosh, it was maybe five minutes.

Q.

And so there was one car there. There was one
officer over Willie and you looked on the ground
and Willie was on the—did you see a backpack or
anything else around Willie?

A.

No.

Q.

Did you happen to see a wallet or anything?

A.

No.

Q.

Did you happen to see the officers—the . . . .
[...]

App.90a
DEPOSITION OF PHILIP CONZA–
RELEVANT EXCERPTS
(OCTOBER 20, 2015)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
VICINAGE OF CAMDEN
________________________
IN RE: WILLIE GIBBONS; ARLANE JAMES,
J.R.G., A MINOR, BY HIS MOTHER AND LEGAL GUARDIAN,
IKEYA CRAWFORD; D.K.L AND L.M.G., MINORS,
BY THEIR MOTHER AND LEGAL GUARDIAN,
ANGEL STEPHENS,

Plaintiffs,
v.
NEW JERSEY STATE POLICE, STATE OF NEW
JERSEY; SERGEANT GREGORY LEACH IN HIS
INDIVIDUAL CAPACITY, AND JOHN DOES 1-10,

Defendants.
________________________
Civil Action No: 13-cv-3530
Before: Hon. Joseph H. RODRIGUEZ, U.S.D.J.

[October 20, 2015, Transcript, p. 101]
A.

I didn’t hear Willie say anything There was talk
back and forth, I think. I remember Bartelt
because his voice was, you know, he was—he was
elevated as far as using constructive force,
yelling, screaming.

App.91a
Q.

Was Willie still walking at that point or did Willie
stop?

A.

He was standing there, yeah.

Q.

Did Willie—when you saw, did Willie turn at any
time or whenever you saw Willie, where Willie
was until the time he was shot, do you recall?

A.

I don’t remember him turning. Basically he was
standing there ablated to me.

Q.

And he was standing north—he was still facing a
little bit northeast at that point?

A.

I couldn’t see him during my approach.

MR. HUNT: Where are you?
A.

This is my Troop car.

MR. HUNT: Put your name or initials there.
A.

I exit mv Trop car and I might have even been a
little further over here, I make a diagonal
approach towards Willie and Trooper Bartelt. At
this point, I am yelling to Bartelt because the only
thing I see is his right side, there is nothing on
his right side, there is no gun, nothing that I see
on his right side. I am yelling to Bartelt, does he
have a gun, does he have a gun. Bartelt has his
gun raised, he yells, he responds, I don’t know if
he’s responding to me or Willie, it was
inarticulate-able but at that time that’s when the
two shots were fired and I observed the recoil in
Officer Bartelt’s at that point.

MR. HUNT: How far were you at that point, distance
wise?

App.92a
A.

Not far—I am probably at the back of the Troop
car though.

MR. HUNT: Wait a minute, in relationship to Gibbons,
how close are you? You can’t tell me the distance?
You are the first Trooper who can’t.
A.

An exact distance—

MR HUNT. An approximate distance.
A.

I am, within feet because after it occurs, Gibbons
goes down and I am on top of him handcuffing
him.

MR. HUNT At the point in time when the first shot is
fired, are you five feet, ten feet, seven feet, give
me an approximate not exact.
A.

I would say seven feet

Q.

Was it light or dark at that point?

A.

Was I seven feet?

MR. HUNT: Approximately?
A.

You are asking me, this is five years ago, five feet,
seven feet that’s pretty specific.

MR HUNT: I am asking you.
A.

I am trying to think of where I was in relation to
the Troop car,

MR. HUNT: More than five, less then ten?
A.

I think in between.

Q.

So you saw Willie, You could see him pretty
clearly, it was light at that point?

A.

I could see the right side of Willie, correct.

App.93a
Q.

And it was not dark, you didn’t have your lights
on?

A.

I don’t remember it being dark. It was still light.
It was starting to get, but, yeah

Q,

You said that you ran and secured him—after he
was shot, you heard two shots?

A.

Correct.

Q.

And you saw the recoil?
[...]

App.94a
DEPOSITION OF NOAH BARTELT–
RELEVANT EXCERPTS
(SEPTEMBER 22, 2015)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
VICINAGE OF CAMDEN
________________________
IN RE: WILLIE GIBBONS; ARLANE JAMES,
J.R.G., A MINOR, BY HIS MOTHER AND LEGAL GUARDIAN,
IKEYA CRAWFORD; D.K.L AND L.M.G., MINORS,
BY THEIR MOTHER AND LEGAL GUARDIAN,
ANGEL STEPHENS,

Plaintiffs,
v.
NEW JERSEY STATE POLICE; STATE OF NEW
JERSEY; SGT JAMES MCGOWAN, TPR NOAH
BARTELT; TPER PHILLIP CONZA, TPR MICHAEL
KORIEJKO, TPR DANIEL HIDDER IN THEIR
INDIVIDUAL AND OFFICIAL CAPACITIES,
JOHN DOES 1-10

Defendants.
________________________
Civil Action No: 13-cv-3530

App.95a

[September 22, 2015, Transcript, p. 75]
A.

No.

Q.

Okay. Is there a policy that when you actually
accost a citizen that you should turn on the video
cam?

A.

I’m not sure. I believe during generic pedestrian
contacts, you should have a video camera.

Q.

So during generic you would have it on, but not
when there is a situation that—

A.

When you’re like in a continuing investigation or
a situation that where you’re already investigating
something it’s not, it’s considered a continuing
invest, not a pedestrian contact.

Q.

But even though Willie Gibbons was on foot at
that point, you didn’t feel that you should turn on
the video because he was a pedestrian at that
point? He wasn’t in his car when you saw him,
correct?

A.

Excuse me?

Q.

Willie Gibbons was not in the car when you saw
him, correct?

A.

No.

Q.

He was walking.

A.

Correct.

Q.

So he would be a pedestrian at that moment,
correct?

A.

I guess you can call it that.

Q.

And so the video was not turned on at that point?

A.

No, there was no video used.

App.96a
Q.

Was it operational?

A.

Yes.

Q.

And how do you know it was operational, do you
test it when you get in the car?

A.

At the start of our shift we do a pre-op check to
make sure that the cameras and the mike boxes
work.

Q.

Do you recall, do you know if any one of you had
a camera on that night?

A.

I don’t recall, no. I think I had it at some point
when I used my lights driving from the Mom’s
house to Burlington Road, I think I might have
put it on. But then I just—when you turn your
lights on, it automatically activates so I turned
my lights off, I didn’t need it anymore so I shut
the camera off.

Q.

So if you had turned on the lights when you were
going, it would automatically come on?

A.

Correct.

Q.

But the minute you turned the lights off, it
automatically turns off?

A.

No, you have to manually turn the camera off.

Q.

So you turned off the lights and the camera?

A.

Yes, because I didn’t want to—when I approached
Burlington Road, I didn’t want to have any lights
on because I didn’t want the lights to scare Mr.
Gibbons to have him run away and for us to get
in a foot pursuit and not be able to find him.

Q.

So why do you turn the camera off because the
camera doesn’t make any noise, does it?

App.97a
A.

There’s no requirement to have the camera on.

Q.

Do you wish you had turned the camera on today?

A.

It probably would have helped if I had it on.

Q.

And did anyone have their lights on when they
were coming, going towards Willie Gibbons?

A.

No.

Q.

You were the only one with a siren on?

A.

No, I didn’t have my siren on. I didn’t even have
my lights on, like I said.

Q.

When you left the mother’s house, did you and
Conza—you and Conza left together, correct?

A.

Correct.

Q.

And did you both have the lights on when you left
initially or just you had your lights on?

A.

No. I think I said I believe at some point, from
what I can remember, at some point I activated
my lights and somehow the camera was turned
on usually from activating the lights and then
that’s when I turned my lights off and the camera
off.

Q.

So the camera was on for a little while?

A.

Yes.

Q.

Did you give that footage to anyone, the little
time the camera was on?

A.

I told, I told the shooting response team about
that. They just informed me that they reviewed
the tape and it was just me for a split second, not
a split second, but a few seconds just the trooper
car driving down the road.

App.98a
Q.

Okay. And so you said that you then drove, you
and Officer Conza, you both left at that point and
you were driving towards Burlington Road, correct?

A.

Correct.

Q.

And in what direction were you going at that
point?

A.

We started out we were going northbound on
Walden Street which was the address of the
mother’s house. We made a left-hand turn onto
Reeves Road which would have been heading in a
west direction and that’s when we got to the
intersection at Burlington Road and we made a
right on Burlington Road which would have us
traveling northbound.

Q.

And’ is that in direction of your station or would
that northbound being going towards your—

A.

The State Police barracks?

Q.

The barracks.

A.

Yes, that would have taken us directly to the
barracks with two turns.

Q.

Did you wonder where Willie Gibbons was going
on foot at that point?

A.

After the fact I thought about it, but at the time
it wasn’t really, it was more of a concern of
getting him, making sure everything’s safe and
that the victim’s safe and then making an arrest.

Q.

Could he have been going towards the barracks?

MR. RIZZO: Object to the form of the question.
A.

He was walking in. that direction.

App.99a
Q.

So he could have been going towards to give
himself up then, correct?

[Transcript, p. 83]
. . . together, though, correct?
A.

Yeah. He was either behind me or one or two cars
behind me, I don’t know.

Q.

And approximately what time was that?

A.

I’m just going with 8:30 the whole time. I mean
that’s when the whole kind of thing happened. I
don’t know the exact minutes and all that stuff.

Q.

So you came up and what did you do after that?

A.

I was driving down northbound lane, as I said. At
that point I see a male subject walking northbound,
however, he was on the southbound side of the
street. He was wearing jeans, he had a bookbag
on and he was wearing a black jacket that had
yellow, reflective lettering on it, bright yellow
lettering.

Q.

And what do you do at that point?

A.

At that point it kind of clicks in my head that this
fits the description that was just given to me
through dispatch so I’m staying in the northbound lane. I kind of get close to the subject which
is identified as Mr. Gibbons. At that point Mr.
Gibbons, he sees me driving down, kind of slowing
down. He turns his head to the right, looks at me
and he says stay away from me.

Q.

And were you in your car then when he said stay
away from me?

A.

I was in my car in the northbound lane.

App.100a
Q.

And how close was he to you when he said stay
away from me?

A.

I would say this whole intersection was within 15
yards.

Q.

Was your car on and you were driving or you
stopped your car?

A.

I was either going very slow or at a stop.

Q.

And was the window at that point?

A.

My window was open.

Q.

When he said stay away from me, how loud did
he say stay away from me?

A.

He didn’t mumble it, he didn’t shout it at the top
of his lungs, it was just—he spoke loudly.

Q.

And you knew then that Mr. Gibbons was a black
man because, of course, the whole—you knew
that he was black, correct?

A.

Correct. Because I pulled his picture up in my
computer, like I said, before I left the station.

Q.

Okay. Great. And you said—did you stop your car
then when he said stay away from me?

A.

At that point when he turned, looked at me and
says stay away from me, that’s when with the
clothing description coupled with the photo that I
did, as I pulled up the first time, he looked at me,
I didn’t say anything to him and he said stay away
from me. And then as I was kind of going across
traffic to kind of stop my troop car, again, he said,
stay away from me or something to that extent
and then he turned around and put the gun to his
head.

App.101a
Q.

So while he was talking to you he kept walking?

A.

Yes. But the first few—

Q.

What was he doing? I mean I’m just trying to find
out when you said he said stay away from me,
what exactly was he doing when he said stay
away from me?

A.

He was walking and turning his head to the right
so his chin was kind of at his shoulder and he was
still walking. He kind of looked back at me,
looked at me and said stay away from me.

Q.

So he was walking and said stay away from me
and, so, he kept walking?

A.

Yeah, correct, and he continued to walk.

Q.

And you continued to drive up towards him?

A.

I mean he was walking so, yeah, I closed the
distance a lot faster with a car so I was kind of—
he was walking and then the first time he said
stay away from me I was like, alright, I have to
get out of the car because he’s probably going to
run from me. So that’s when I tried to pull my car
over to him and get out of my car so I could put it
in park and get out.

Q.

So you moved your car closer to him to block him
from running, is that what you mean?

A.

No, because he was on the grass. Like I said, I
just kind of to get me closer to him kind of, I just
kind of pulled my car into the southbound lane of
travel and kind of slanted a little bit kind of
facing directly at him to a certain extent.

App.102a
Q.

And you said he was walking. Describe walking
to me because I don’t know, walking could mean
—what do you mean by walking?

A.

Just—he wasn’t stumbling, he wasn’t moving
slow, he wasn’t running and he was just a normal
like a walk.

Q.

Okay. And when he said stay away from me, what
do you say to him?

A.

That’s when I turned my car over, my window
was down and I said come here.

Q.

And did you identify yourself at any time?

A.

I’m not sure if I verbally identified myself, but it
would have been by my car, the uniform I was
wearing as visible state police identifiers on the
car, on my uniform.

Q.

Was it light during that time, 8:30, you said 8:30
in May, was it still light outside?

A.

I’m not sure, but I think it was dark out.

Q.

Did you have your light on at that point?

A.

My headlights were on.

Q.

Your headlights. But were your headlights facing
Mr. Gibbons or were they facing the street?

A.

I think they were still facing the street.

Q.

And did you get a clear view of Willie Gibbons
because you said your light was on, correct?

A.

Yes. I could see—like I said, I could see, I could see
his bookbag, I could see his jeans, I could see his
black jacket and I could definitely see the yellow
lettering on this jacket.

App.103a
Q.

And then you said that he—at that point what
happened next? So then you said and so he then
after you said come over here, what did Willie
Gibbons do next?

A.

He turned with the gun, put the gun to his head
in his left hand and said stay away from me.

Q.

What did you do next?

A.

At that point I said, I told him to drop it.

Q.

Do you recall saying that or you might have said
it?

A.

No, I know I said it.

Q.

And what did he say?

A.

He didn’t any anything or do anything. He might
have like continued to say stay away from me, I’m
not sure.

Q.

So he had the gun to his head and you say drop it
and he just had the gun to his head looking. Was
he looking at you, directly at you?

A.

Yes.

Q.

How far was he in feet?

A.

I’d say approximately anywhere’s—like I said, I
can’t tell distance, but anywhere between seven
to 14, 15 yards.

Q.

And were you still within your door speaking to
him when you said drop it?

A.

That’s when—I was still in my car when he turned
with the gun in his hand, that’s when I got out of
my car and I drew my gun on him.

App.104a
Q.

So when he turned with the gun to his head, you
were already, you were in your car?

A.

Yeah.

Q.

And when you saw him with a gun to his head,
you got out of your car?

A.

Correct.

Q.

And then you—and then where did you go, did
you go towards him or did you—what did you do?

A.

I stayed inside the, door jamb of my car because
it was kind of—once you see the gun in play you
kind of have to almost stay where you’re at and
kind of hold your ground.
Umm, it did happen really fast. You have to understand when I say I was in my car when he drew the
gun, I was putting the car in park, like opening the
door, at some point I might have been stepping
out. So there was just a lot going on that I wasn’t
just sitting in my car with two hands on the
steering wheel, I was making an attempt to get
out of my car as he was turning around with the
gun in his hand.

Q.

And did you normally, would you normally ask for
backup when you’re dealing with something like
this where you have to arrest someone?

A.

I knew Trooper Conza was behind me. I mean we
had four guys working that night so having two
guys on the scene at once is pretty good for us, so.

Q.

So and you knew that Hidder because Hidder
turned around, so you knew he was coming back.

A.

Yeah,·he knew where we were at. I think Trooper
Koriejko was probably heading in that direction.

App.105a
All four of us were on the road in that area so there’s
no need to call for backup because everyone knows
where, you’re at and what’s going on.
Q.

So you could have waited at that point to allow the
others, since he is on foot and he wasn’t running,
you could have waited at that point for others to
come up at the same time and then you would
have had backup at that point, correct?

A.

No, because if someone who thinks they did
something wrong, they might possibly think they
might be under arrest isn’t just going to sit down
and wait and I’m going to sit down and wait and
kind of call a timeout until other people arrive,
that’s not kind of how it works.

Q.

Oh. So from your training he had a gun to his
head threatening himself.

A.

You’re talking about when he has the gun to his
head?

Q.

I’m saying to you when you came up and you saw
him and if you were going to get out to arrest him,
is it normally, would you have waited for someone
to come normally or you would just get out on
your own and arrest him or since there are other
people around, other officers around?

A.

No. You just, you got to get out, you got to diffuse
the situation as fast as possible. You can’t sick
back and wait and wait, again, it doesn’t make
sense.

Q.

So you then decide that you were going to take care
of this yourself, you didn’t need, because they’re
all coming and you were going to move on your
own at this moment?

App.106a
A.

Correct.

Q.

Because that makes more sense, correct?

A.

Yes.

Q.

Okay. So then, you got out of your car, he was
there, he had the gun to his head and you got out
of your car and. then you went to the door jamb,
you said, and what happened next?

A.

That’s when I told him to drop it. He refused the
command, he just didn’t do anything. So I told him
to come here, he didn’t do that. I told him to drop
the gun, he didn’t do that. At that point Trooper
Conza comes from my left, he’s coming from
behind me on foot. And Trooper Conza, he sees the
gun, at that point he sees the gun and he asked
me like is that a gun.
At that point I might I might have responded to
him, I might not have if I said yeah or whatever
and at that point is when I shot and fired my
handgun twice.

Q.

You fired more than twice because you fired a
third time, but it jammed; is· that correct?

A.

Correct. Two rounds came out of my gun.

Q.

So you were firing at that point. When you fired
the first time, what did Willie do?

A.

State Police during our firearms training were
taught to double tap, it’s a military and law enforcement, it’s called double tap. So when you fire, you
usually fire twice and then you assess the situation
after those two rounds of fire.

Q.

Why do you fire a third time?

App.107a
A.

I couldn’t tell you. Adrenalin, I don’t know.

Q.

And what happened when you fired a third time?

A.

Nothing happened. So at that point I kind of see
Mr. Gibbons drop, kind of collapse to the ground.
So I kind of, I play with my handgun for a second,
try to figure out the problem, make sure I reengage
it, make sure it’s still alive again and I see Mr.
Gibbons on the ground. At that point I put the
gun in my holster.

Q.

And just describe for me, you said he dropped.
Can you describe exactly how he dropped?

A.

Umm, just collapsed. I mean his—

Q.

He just fell—

A.

Fell, yeah, fell, on the ground.

Q.

Did he turn to the left, did he turn to the right?

A.

I’m not sure, just kind of straight down. And then
once he got to the ground I’m sure his body
manipulated a certain way, but.

Q.

And when he was going down, what happened to,
did you see what happened to, you said, that the
gun was in his hand, what happened to the gun
that was in his hand.

A.

Yeah, the gun fell—I mean he dropped the gun,
the gun fell approximately two to three feet away
from his body.

Q.

And you knew then that he was shot, correct?

A.

Yes. I inferred that based on his reaction, yes.

App.108a
Q.

And you then, you said that he—just one question
I want to ask you. When he was—before you shot
him, where exactly was his body?

A.

On Burlington Road.

Q.

Was he facing you directly, was he facing—was
he still like turned? I mean could you describe
exactly how his body was when you shot him?

A.

I can tell you he was looking at me and his—
whether or not his shoulders were, directly facing
me like mine and yours are right now, I can’t tell
you that. He might have been pivoted over a little
bit to the left or the right, but I know that his
head was in line with my head because we were
making eye contact with each other.

Q.

He was about your height?

A.

I’m not sure.

Q.

How big a person was he?

A.

I would say normal of average size, normal.

Q.

He wasn’t a big guy by any means, correct?

A.

No.

Q.

And he didn’t except to say leave me alone or stay
away from me, he didn’t threaten you in any way,
did he?

A.

No.

MR. RIZZO: You mean verbally?
MS. STERLING: Verbally, yes.

App.109a
. . . pulled up, all that stuff about the whole
investigation, that’s when I realized, alright, this
is Mr. Gibbons, the guy we’re looking for?
Q.

And what do you say to him at that point?

A.

At that point I kind of angle my troop car in the
southbound lane of travel. So now I’m in the
southbound lane of travel kind of facing traffic
coming at me. There was no traffic on the road at
the time, but I’m in that lane of travel. Again, at
that point, I might say something to him to the
extent of come over here.

Q.

So you said come over here?

A.

Something to that extent.

Q.

And what did he say?

A.

At that point he turned and—sorry. He turned
and turned with his left hand—he turned around,
he had a gun in his left hand and pointed the gun
to his head and, again, said stay away from me.

Q.

When you say—and that’s a detail, not—when
you said that he turned, tell me what he was
doing. So when you and he were talking, did he
turn his head to say stay away from me?

A.

Yeah. He turned his head either one time or two
times, I don’t remember how many times. But as
he . . . .
[...]

App.110a
STATEMENT OF NOAH BARTELT TO
DETECTIVE TIMOTHY COYLE - DIVISION OF
CRIMINAL JUSTICE
(MAY 27, 2011)
DIVISION OF CRIMINAL JUSTICE
LAW ENFORCEMENT SERVICES
________________________
Case:

Police Involved Shooting

Case Number:

DCJ 2011-05844-SRT

Statement Date:

May 27, 2011

Statement Time:

11:45 a.m.

Statement Location: Bridgeton Station
Statement Of:

Trooper Noah Bartelt
New Jersey State Police

Interviewer:

Detective Timothy P. Coyle,
New Jersey State Police

Transcribed By:

Francine Lucchesi

Legend:
TC: Detective Timothy P. Coyle,
New Jersey State Police
KP: Detective Kiersten Pentony,
Division of Criminal Justice
CS: Charles H. Schleiger,
Attorney for STFA
CB: Trooper. Christopher Burgos,
New Jersey State Police
NB: Trooper Noah Bartelt,

App.111a
New Jersey State Police
TC: This is the tape recorded statement of Trooper
Noah Bartelt. It is Friday May 27, 2011. The time
is now 11:45 a.m. We are present at the New
Jersey State Police Bridgeton Station, more specifically we’re in the Assistant Station Commander’s
office. I am Detective One Timothy P. Coyle, badge
number 5687 of the New Jersey State Police
Major Crime Unit. Trooper Bartelt, your statement is being tape recorded and the information
you have to offer is very important. It is necessary
for you to speak loud, slow and clear. If necessary,
it is suggested that you wait a moment to compose your . . .

[Excerpts; Pg. 18]
NB: At the time it was very uh minor traffic.
TC: And again the lighting conditions?
NB: It was dark, no street lights. There might’ve been
a few house lights on here and there.
TC: But having said that, even with those conditions
um you were still able to clearly see . . .
NB: Yes.
TC: . . the suspect?
NB: Yes I could still see him. I could still see enough
to see IA.
TC: Did you have your lantern on or spotlight?
NB: No I did not have my spotlight on.
TC: Okay. So go ahead, you pull in.

App.112a
NB: I pull in, he uh I go to put the car in park,
getting ready for a foot pursuit. He says again,
turns his head not his body and says “stay away
from me.”
TC: Are you still in the car at this point?
NB: I’m still in the car at this point.
TC: Okay.
NB: So I put the car in park. As I uh . . I guess I say
“come here”, something to that extent, he ignores
me, I’m getting ready to jump out to start chasing
after him and then at that point he turns, he has
a gun . . I see a gun in his left hand and the gun
is pointed towards his temple on his left side.
TC: As he’s turning, the first time you saw that . . . did
you see where the weapon came from or it was
just . . you just saw it coming up in his hand?
NB: Uh no I just saw the weapon come up in his hand.
As . . on my approach to him, all I saw was his
back and the right side of his body. So he may
have had the gun in his hand the whole time or
he could’ve had it in his pocket. Like I could not
see his left hand during my initial approach to
him.
TC: As he’s turning and the gun’s coming up, are you
still partially in the car or were you already out?
NB: I don’t know. I could . . . I was either partially in
or out.
TC: Okay. Did you have your weapon out? Did you
have your weapon out at this point?
NB: No I did not.

App.113a
TC: Okay. Describe his actions next.
NB: Like I said he turned . . . he’s me and him he’s
directly facing me and had the gun pointed
towards his head and he says “stay away from
me” again. At that point, that’s when I saw the
gun, right when I saw the gun as he was turning,
I immediately drew my weapon and had my
weapon on him.
TC: Now so when you’re pulling your weapon . . when
you’re drawing your weapon, are you out of the
car or are you still partially in the car?
NB: I’m out. When I drew my weapon I was out of the
car.
TC: Where are you standing?
NB: Uh the door was open I was standing inside the
door right there, in the door jam, right next to my
car.
TC: Okay so the door is open as wide as it can get?
NB: Correct.
TC: And so you’re between the door and the chassis or
the body of the vehicle?
NB: Yes.
TC: And you’re standing almost in that V that’s
created?
NB: Yes.
TC: Or you’re through the window?
NB: No I’m standing above the window.
TC: Okay so in that V that’s created?
NB: Yes.

App.114a
TC: Okay um and now . . . are you giving him
commands? Is he yelling at you? What’s going on
right now?
NB: Alls he said was the one . . . he said “stay away
from me”, I said “drop it, drop it”. Um at that
point Trooper Conza, he must’ve . . . I didn’t
know where he was, I just heard his voice say “is
that gun”, I may have replied yes.
TC: Alright if I can stop you right there. Your weapon’s
out. Are you um how do you have it pointed? Do
you have it like um . . . there’s a pistol shoot we’re
all trained . . . there’s a ready position and there’s
on target.
NB: I was on target.
TC: Okay. Are you um making any other . . . are you
. . . in addition to watching the suspect and where
was the gun? Was it pointed at his . . .
NB: It was pointed at his . . . right at his head.
TC: Do you . . . to the best of your ability . . can you
describe . . . was it pressed again his skin or was
there a space? If you remember.
NB: I don’t know.
TC: Um are you making any other observations other
than the Suspect?
NB: Yes I was looking at . . . behind him there was a
house there which kinda made me . . . this is all
going through my head fast so I hesitate I saw the
house behind me, which is why I initially did not
shoot right away. I saw the house, and then I continued I said there are no lights on, it didn’t

App.115a
appear there were any cars in the driveway, in
front of the house and um . . .
TC: And now . . . so you’re making these . . . now you’re
making these assessments, what is the suspect
doing? Is he making any motions? Is he . . .
NB: I mean this all happened within a few seconds
and he still had the gun to his head and he was
just standing there facing me, looking right at
me.
TC: Okay and then what . . now what happened?
NB: Trooper Conza says “is that a gun?” I think I
replied “yeah” and then that’s when I . . . I shot
twice, hitting the suspect.
TC: Okay immediately before firing. What’s the
thought going through your head?
NB: I’m thinking this guy could potentially turn that
gun on me, squeeze a round off before I can get a
chance to realize that he’s turned the gun towards
me.
TC: Approximately how far did you feel you were from
him?
NB: Ten to fifteen yards.
TC: Although the weapon is at him was he still acting
aggressively? Was he speaking in an aggressive
manner?
NB: Uh I’m not sure. I don’t believe he was speaking
at all at that point besides when he was “stay
away from me.”
TC: Well even the stay away from me, was it . .
NB: It was pretty . . .

App.116a
TC: aggressive?
NB: Nah he was aggressive from the first time he said
‘it, it was in an aggressive manner, “stay away from
me.”
KY: Was he moving around at this point? Or did he
just stop where he was?
NB: Stopped, standing still, facing me.
TC: From the distance that you’re describing, is it
your opinion that a shot could’ve . . he could’ve
fired a shot in a relatively almost instantaneous
manner?
NB: Yes.
TC: And in the position he was standing, did you have
a lot of options if you had to dive out of the way
or move around?
NB: No I didn’t . . I had . . there was no cover to my
left. The only cover was my car but I was . . the
way my car was parked I could not hide behind
any IA or anything like that. I was either . . had
to run around my car to the back, I was out there.
TC: Did you have any, knowledge that the door you
were standing behind has had any fortification to
make it a totally ballistic uh . . .
NB: No the door . . there’s no uh all’s it is just uh
something to stand behind, a bullet would go
right through it in my understanding.
TC: From your perspective at that point the bullet can
pass through that door?
NB: Correct.

App.117a
TC: Um so do you feel that your mobility was limited
due to the position that you were in?
NB: Yes.
TC: Um is there a more advantageous position you
would’ve taken had not his weapon been raised so
quickly? If you had a chance, would you have put
yourself in a better position?
NB: Uh yes.
TC: But you . . . is it fair to say that you were kind of
forced into that position due to . . .
NB: Yes.
TC: . . . due to his raising of the weapon?
NB: Yes.
TC: And is it fair to say that as the weapon was raised
it was as surprise to you? Or did you almost anticipate that gun coming up.
NB: No I think IA anticipated a foot pursuit; I anticipated him just keep walking and running and
then those . . . to see him turn with a gun I did
not anticipate that.
TC: So when you saw that gun in his hand coming up
that was a shock to you?
NB: Yes.
TC: So when you saw him walking before you got out
of the car, you didn’t brace yourself, before I get
out of this car did you know that this individual
had a gun in. his hand?
NB: No I did not know he had a gun in his hand.

App.118a
TC: From your training and experience, can you take
anything from the fact that somebody has a gun
in their hand before they even encounter the
police? Does that say anything to you as a police
officer?
NB: Can you say that again?
TC: Does that say anything to you the fact that before
you even encountered somebody they had a gun
in their hand? Can you read something froth
that?
NB: Uh yes it basically means the IA situation I could
potentially not walk away from that situation and
I’m in fear of my life at that point you know? I’m
getting ready to do what I have to do.
TC: Now um the gun’s of his head, you give your commands drop it, and I’m lust refreshing what you
said, and Conza asks you if he has a gun, what’s
your response?
NB: Uh yea.
TC: And then what was the next action then?
NB: Uh I fired my gun two times.
TC: Okay. Um you took . . made a decision to fire,
what made you stop firing? Cause how many . . . do
you know how many or . . how many uh rounds
does your magazine or weapon hold?
NB: The magazine holds thirteen rounds and one in
the chamber, so you can put fourteen in there.
TC: Okay so you have . . at least in your mind you
have fourteen rounds. What made you stop firing
at two?

App.119a
NB: Uh I believe I squeeze the trigger a third time and
nothing happened. That’s when I uh I looked at
the suspect, the suspect was on the ground, he
was moaning so I . . .
TC: How did he get to the ground? Did he fall? Did he
leap?
NB: Uh kinda just slowly made his way to the ground
I mean . . .
TC: Did he still have the weapon in his hand?
NB: Uh as he was dropping to the ground the weapon
fell approximately two to three feet away from his
body. It was laying on the grass.
TC.: Okay but you did mention that you felt you had a
malfunction with the weapon. Let’s say your
weapon was still functioning. Would you have
stopped firing after the third round? Or did
you . . .
NB: Yes. I mean after I saw him indicate that he did
get hit and he was on the ground, the confrontation
was over, the situation was de-escalated and I
was done at that point.
TC: So after . . . after those two rounds and possibly if
you could’ve got the third off, you were ready to
reassess the . . . reassess the threat as it was
posed to you?
NB: Yes.
TC: And your assessment after that second rout
couldn’t get the third off, but that assessment was
what?
NB: It was that the situa . . . that pretty much I’m safe
now.

App.120a
TC: That immediate threat.
NB: Yes that immediate threat is gone. I mean the
gun’s still out there but the way he was . . he was
on the ground, I knew he wasn’t gonna move to get
that gun again.
TC: Okay so he’s on the around, the gun is . . again
you said I think two to three feet? Is that fair to
say?
NB: Yes.
TC: Okay what’s your next action?
NB: Um that’s when Trooper . . I see Trooper Conza
out my left eye or in my left view I see Trooper
Conza walking onto the scene now. I kinda
dropped down, because I checked my gun because
like ah what happened? I remember uh I don’t
know if I pulled the . . . .

App.121a
STATEMENT OF DISPATCH AND
NEW JERSEY STATE POLICE
RADIO TRANSMISSION
(MAY 25, 2011)
DIVISION OF CRIMINAL JUSTICE
LAW ENFORCEMENT SERVICES
________________________
Case:

Police Involved Shooting

Case Number:

DCJ 2011-05844-SRT

Incident Date:

May 25, 2011

Statement Of:

911 Dispatch and New Jersey State
Police Radio Transmissions

Transcribed By:

Marge Straccio

(Start of first Track on CD)
State Police IA
Uh hi yes this is Clarence I’m calling in reference
to uh my friend Angel Stephens she had filed a uh some
kind of a restraining order against her boyfriend.
Yeah
And he’s out there in front of the house harassing
her.
What’s her address?
Uh oh man I knew it it’s Barend; Barend Street,
Fair, Fairfield Manor Barend Street I think it’s
Fairfield Manor is Bridgeton City.
No that’s, that’s Gouldtown.
What’s the address then?

App.122a
It is Barend Road I think I don’t know if it’s Road
or Street. I’m, I live like three houses down from her
in Fairfield.
Well I don’t know where I’m going Barend you
said?
Yeah Barend
Hold on please
Now you said Barend Street?
Yeah
What’s it off of?
Uh IA it’s off of uh Duchess, it’s like when, when
you come in you make that, when you come in you
make that first left
Yeah
You, you make the first left and it’s middle block
Oh okay so it’s in Gouldtown then right
Yeah Gouldtown yeah it’s like the middle block
So you don’t know what the address is alright I
see B-a-r-e-n-d.
Yeah
How far is it off Duchess or is it off Lee?
Off Lee
How far off of Lee?
Oh well she got a big uh
She on the left or right when you come off of Lee
on to Barend is she on the left or the right?
Uhhh the, the right.

App.123a
What’s your last name?
Uh Dunns, D-u-n-n-s
First name?
Clarence
And what’s your phone number?
uh 856-uh XXX uh put XXXX
And what’s her name?
Her name is Angel Stephenson but she had called
earlier because he was out here-and I guess the police
the State Trooper told her she had to come down there
I don’t know
Okay
what for but
Okay and he’s out there arguing with her?
Well he’s out there in front of her house yeah.
What’s what’s his name?
Uh Willie Gibbons. He has a restraining order, I
guess she filed one last night.
She did?
Yeah she did.
She did alright where do you live uh Clarence?
I live 51 Seena Drive
What is it?
Seena, S-e-e-n-a Drive
That’s the one all the way in the back?
Yes

App.124a
Okay we’ll have somebody come out.
Okay
How, how many houses down off of um Lee is it
on the right?
Uh about 1, 2, 3 about 4 she has a XXXXXXXX in
her yard.
Okay thanks
Okay thank you.
(Dialing phone)
Answered - Thank you for calling the Bridgeton
Police Department, if this is an emergency
Please hold while I try that extension.
Ringing - Bridgeton City Police Detective IA
Uh yeah IA
Yeah what’s up
Uh we just had a verbal out in uh Fairfield Manor
Uh huh
On Barend Street
Uh huh
Uh it was a male that apparently departed he, he
showed up uh arguing I guess with his ex. and he
Hold on Please
Yeah
Okay
Uh he um his name is Willie Gibbons

App.125a
Uh huh
He apparently showed up on Barend Street uh
with a handgun and then he departed uh he’s driving
a black F 150 pick’em up and it got some type of stripe
going down the side of it.
You got a tag?
Zulu, Tango, Zulu 47
Zulu, Tango Zulu
47 Echo
47 Echo and there’s a there’s a Warrant for him?
Uh didn’t say anything about a warrant he had a
verbal and he had a gun with him, if you do find him
let us know.
Okay do you have any idea where he’s going to
headed?
No unknown
I’m sorry
Unknown direction on where’s he going
Okay and that was Fairview Manor?
Yup and Barend Street is where he went to.
Had a verbal with his ex and then he departed
but he, he did show he had a handgun.
Okay Thank you
Alright
(End)
State Police can I help you.

App.126a
Uh this is Angel Stephens the cops just sent a
dispatch to my house for my baby dad with a gun. I
just passed him on uh-Burlington Road walking. He’s
on foot.
Burlington, what’s he wearing?
He got on a black jacket it’s got yellow on it, he’s
walking on a I’m coming towards the station so he’s
walking on the left side of the road like, like
He’s on Burlington walking towards the station.

App.127a
NEW JERSEY STATE POLICE
INVESTIGATION REPORT
NARRATIVE OF MAY 24, 2011 INCIDENT
Technicians Involved

N/A

Assisting Troopers
Badge #

Name

7048
7059
7111
7128

TPR. B P MCCARTY
TPR. H I PEREZ
TPR. M M DISIBIO
TPR. L F MARANDINO

Other Supporting Agencies

N/A

Related Cases

N/A

Summons/Warnings & Statutes

N/A

Suspects/Summoned
WILLIE D GIBBONS
DL Number: XXXXXXXX
Area Code & Phone: XXXXXXXXX
State:
New Jersey
S.S.N.:
XXXXXXXXXX
Address:
1309 SECOND AVE,
BRIDGETON, NJ 08302
D.O.B
XXXX
Age 33
Sex Male
Race
2B
Height
5’ 08”
Weight
180
Hair
Black
Eyes
Brown
Complexion Medium Dark

App.128a
Criminal Complaint Warrant/
Summons No.

S2011000130

Persons Arrested N/A
Narrative
05/24/2011
On the above date troopers from the Bridgeton
barracks were detailed to 6 Barend St. in Fairfield
Two, Cumberland County reference a domestic dispute.
Dispatch stated that a male struck a female and that
he has a gun in his truck. Upon arrival I observed a
black male in the front of the residence. I approached
the male and immediately identified him as Willie
Gibbons from previous contacts. Knowing that Mr.
Gibbons has been accused of possessing a gun in the
past, and the that that the caller stated he had one in
his truck this incident, I conducted a non intrusive
frisk of his outer garments for trooper safety. Once
determining that Mr. Gibbons was not a threat to
trooper’s on scene, I engaged in conversation with him.
Mr. Gibbons was observed to be sweating profusely
and appeared to be impatient. I also observed several
bags of clothing and other articles just outside of the
doorway to the residence. Mr. Gibbons was not cooperative at first, just like previous contacts with him. I
asked him what happened, to which he responded that
it doesn’t matter what happened because no one listens
to him. I asked him what happened again, to which he
replied that he is a victim. He stated that his girlfriend
cheated on him and he wanted to leave the residence,
but she didn’t want him to leave. While gathering his
belongings and trying to leave, she grabbed him and
prevented him from leaving. Mr. Gibbons further stated
that he has been living at the above residence for a

App.129a
short period of time after he had left his old residence
in Seabrook. I asked him why we were informed that
he may have a gun in his truck. He stated that he does
not know, and that he does not have a gun. Mr.
Gibbons did not provide anything else that would aid
in this investigation.
I then spoke with the female identified as Angel
Stephens, Ms. Stephens stated that she attempted to
leave the residence but Mr. Gibbons prevented her
from doing so. A struggle ensued inside of her bedroom
which was then brought out into the hallway where
Mr. Gibbons put a hole in the wall with his hand. She
stated that she wanted to sign a complaint against
Mr. Gibbons for the hole in the wall and to apply for a
restraining order.
Due to the fact that, the statements provided by
the male and female contradict each other and a victim
could not be identified at this time, I requested both
individuals to return to the barracks so that written
statements could be completed and to determine a
victim in this incident. Due to the fact that Ms. Stephens accused Mr. Gibbons of carrying a hand gun in
his pick-up truck, he was transported in the rear of
my troop car to the barracks.
Upon arrival at the barracks, both individuals
completed written statements of the incident (see case
jacket). Upon speaking with Ms. Stephens. further, she
also claimed that earlier in the day Mr. Gibbons
threatened to “kill her” with the same gun that he is
accused of carrying in his truck. She is scared that Mr.
Gibbons may do harm to herself or her children.
I then asked Mr. Gibbons if he threatened Ms.
Stephens with a gun, which he denied ever stating that.

App.130a
He insisted that he does not have a gun, therefore he
could not threaten her with one.
After being provided with this information, I determined that Ms. Stephens was the victim in this
incident. She was provided with a V.I.N.E form and
indicated that she wished to apply for a restraining
order. I contacted SERVE representative, Lyan Aiallo,
who spoke to Ms. Stephens over the telephone. I then
contacted JMC Casarow in reference to the TRO.
Judge Casarow granted the TRO, and authorized a
search of Mr. Gibbons’ truck. A search of the truck was
made with negative results for any weapons.
Mr. Gibbons was served with his copy of the
restraining order. Citizens summons complaint S201
100G130 was signed by Ms. Stephens for criminal mischief (2C:17-3A (1)) and issued to Mr. Gibbons. Mr.
Gibbons, was later transported to the above residence
with the assistance of Troopers where he gathered, a
small amount of belongings and departed the residence.
He was advised that if he wished to gather the rest of
his belongings to request a police escort.
Due to the fact that there is no evidence in this
case and that same has been turned over to the court,
it is requested that this case be considered closed.
Closed . . . .
Report Dare: 06/15/2011
TPR. M R GORE
#7207
/s/ M.R. Gore

App.131a
1st Approval
Date 06/16/2011
SSGT. E F KEEBLER
#4397
Signature: /s/ SSGT. E F Keebler
2nd Approval
Date 07/01/2011
DSG M L PETERSON
#5389
/s/ DSG M L Peterson

